<html>
<title> - USING TECHNOLOGY TO FACILITATE TRADE AND ENHANCE SECURITY AT OUR PORTS OF ENTRY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
USING TECHNOLOGY TO FACILITATE TRADE AND ENHANCE SECURITY AT OUR PORTS 
                                OF ENTRY

=======================================================================

                             FIELD HEARING

                               before the

                       SUBCOMMITTEE ON BORDER AND
                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 1, 2012

                               __________

                           Serial No. 112-87

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/





                  U.S. GOVERNMENT PRINTING OFFICE
77-801                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c6a1b6a986a5b3b5b2aea3aab6e8a5a9abe8">[email&#160;protected]</a>  
                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Mike Rogers, Alabama                 Henry Cuellar, Texas
Michael T. McCaul, Texas             Loretta Sanchez, California
Paul C. Broun, Georgia               Sheila Jackson Lee, Texas
Ben Quayle, Arizona, Vice Chair      Brian Higgins, New York
Scott Rigell, Virginia               Hansen Clarke, Michigan
Jeff Duncan, South Carolina          Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)

                      Paul Anstine, Staff Director
                   Diana Bergwin, Subcommittee Clerk
            Alison Northrop, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Ranking Member, Subcommittee on Border 
  and Maritime Security..........................................     4

                               WITNESSES
                                Panel I

Mr. Gene Garza, Director of Field Operations, Laredo Field 
  Office, Office of Field Operations, U.S. Customs and Border 
  Protection:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Steven C. McCraw, Director, Texas Department of Public 
  Safety:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15

                                Panel II

Mr. Jesse Hereford, Vice Chairman, Border Trade Alliance:
  Oral Statement.................................................    26
  Prepared Statement.............................................    28
Mr. Wilfredo Martinez, Chairman, Laredo Chamber of Commerce:
  Oral Statement.................................................    31
  Prepared Statement.............................................    33
Mr. Jose D. Gonzalez, Jose David Gonzalez Customs Brokerage:
  Oral Statement.................................................    35
  Prepared Statement.............................................    37


USING TECHNOLOGY TO FACILITATE TRADE AND ENHANCE SECURITY AT OUR PORTS 
                                OF ENTRY

                              ----------                              


                          Tuesday, May 1, 2012

             U.S. House of Representatives,
                    Committee on Homeland Security,
              Subcommittee on Border and Maritime Security,
                                                        Laredo, TX.
    The subcommittee met, pursuant to call, at 2 p.m., in Room 
101, De la Garza Building, Laredo Community College--West End, 
Washington Street, Laredo, Texas, Hon. Michael T. McCaul 
presiding.
    Present: Representatives McCaul and Cuellar.
    Mr. McCaul. The committee will come to order.
    This subcommittee is meeting in Laredo, Texas, to examine 
the use of technology to facilitate trade and enhance security 
at the port of entry; and I want to thank, just out of the box, 
the CBP for a wonderful tour of the bridge to see the great 
work that our men and women are doing there. I want to thank, 
also, all of the relevant Federal agencies here, and State 
agencies, and local law enforcement for the tremendous job that 
you do day in and day out to help make the Southwest Border 
safer.
    This is an official Congressional hearing, it's not a town 
hall, and as such we must abide by certain rules of the 
Committee on Homeland Security and the House of 
Representatives, so no demonstrations. I don't think we're 
going to have that problem today. I now recognize myself for an 
opening statement.
    The free flow of trade and commerce through our port of 
entry is vital to our Nation's economy. Yet today, those ports 
of entry have also become a route for Mexican cartels to funnel 
the--their drugs into the United States. Our Federal agents 
have a never-ending job of preventing this onslaught, and, 
unfortunately, the search for these illegal drugs has slowed 
down the flow of commerce and threatens to further weaken our 
already fragile economy.
    How much is really at stake? Well, last year alone $83.4 
billion of commerce came through Laredo--through the Laredo 
border crossing. Today we learned that it's the largest land 
port of entry in the United States. The city has lived up to 
its distinction as ``The Gateway City'' boasting the busiest 
commercial truck crossing in the United States; and, as we saw 
today at the bridge, 5,000 18-wheelers crossing every day, 
every day, every year.
    America's free flow of trade is threatened, however, 
because our ports of entry remain a battleground in our fight 
to protect the homeland.
    The same ports of entry that serve as a pipeline for 
economic growth are inundated by illegal drug shipments. 
According to the Department of Justice, more than 90 percent of 
all illicit narcotics come into the United States through 
official ports of entry hidden among cargo and travelers.
    Last year in Laredo, Customs and Border Protection Officers 
seized 21.5 kilos of cocaine and more than 33 kilos of 
methamphetamine; and where there are drugs flowing north you 
can be sure to find guns and money flowing south.
    Make no mistake, the cartels running drugs across the 
Southwest Border are highly sophisticated criminal 
organizations with one goal in mind--to make as much money as 
possible. They will use any means necessary to ensure their 
poison reaches the interior of our Nation.
    The men and women of CBP are the last line of defense in 
our fight to stop the drugs from entering the United States. 
These officers have a difficult task: Separate illicit cargo 
and travelers from the legitimate ones with minimal 
interruption to the flow of legal trade.
    After September 11, traffic across some ports of entry came 
to a standstill due to more detailed questioning of travelers 
and inspection of cargo. This resulted in long truck delays and 
caused plant closures, threatening companies which rely on 
these shipments. In the immediate aftermath of a terrorist 
attack, this may have been a reasonable response, but 
consistent delays at the border costs time and money, driving 
up business costs. We do not want to experience that again.
    Balancing this trade and security requires a smart 
application of technology, personnel, and infrastructure. We 
must adequately secure the border in order to facilitate trade.
    Over the last few years, the Department of Homeland 
Security has increased the number of CBP Officers. While these 
men and women may be needed to address specific gaps, it is 
clear that we cannot secure the ports of entry only with boots 
on the ground.
    A key to security is the maintenance and expansion of 
infrastructure. Our Nation's ports of entry need modernization. 
We cannot increase capacity if there's not enough truck lanes, 
passenger lanes, and facilities to conduct secondary screening. 
Especially in these difficult budgetary times, it is important 
that funds be targeted to maximize both trade and security.
    New forms of technology would allow CBP to more efficiently 
use its manpower; and every year over 1.6 million trucks pass 
through the Laredo port of entry. We cannot physically inspect 
or scan every single one of these trucks. We must separate 
travelers and cargo through trusted shipper and traveler 
programs that allow CBP to focus manpower and other assets to 
find illicit goods and weapons.
    Technologies, such as the non-intrusive inspection 
equipment allow CBP to effectively screen the large volume of 
travel and commerce at the border. Additional tools, such as 
license plate readers, give officers the ability to discern 
patterns about the frequency and timing of crossings.
    While technology has increased our ability to screen cargo 
and passengers more effectively, I am concerned that the 
Department still lacks a truly strategic approach to research 
and development of these technologies that will enhance the way 
we secure our ports of entry in the future. CBP needs a 
technology innovation plan which would inform industry of its 
needs, and allow industry to better recognize the needs of the 
Department in a way to better leverage scarce funding.
    What is missing is a strategy to secure the border, both at 
and between the ports of entry. Technology must be an integral 
part of this plan. So the purpose of this hearing is to examine 
ways to better utilize this technology.
    I look forward to the witnesses' testimony--and let me just 
also say what a--what an impressive tour that we got at the 
border to see the layers of screening that exist, the X-ray 
capability--tremendous task that you have to do day in and day 
out; and I walked away from seeing what we saw today knowing 
that we are more secure on this border.
    [The statement of Mr. McCaul follows:]

                Statement of Chairman Michael T. McCaul
                              May 1, 2012

    The free flow of trade and commerce through our ports of entry is 
vital to our Nation's economy. Yet today, those ports of entry have 
also become a route for Mexican cartels to funnel their drugs into the 
United States. Our Federal agents have a never-ending job of preventing 
this onslaught. Unfortunately the search for these illegal drugs has 
slowed down the flow of commerce, and threatens to further weaken our 
already fragile economy.
    How much is at stake? Last year alone, $83.4 billion of commerce 
came through the Laredo border crossing. The city has lived up to its 
distinction as ``the Gateway City'', boasting the busiest commercial 
truck crossing in the United States.
    However, America's free flow of trade is threatened, because our 
ports of entry remain a battleground in our fight to protect the 
homeland.
    The same ports of entry that serve as a pipeline for economic 
growth are inundated by illegal drug shipments. According to the 
Department of Justice, more than 90% of all illicit narcotics come into 
the United States through official ports of entry hidden among cargo 
and travelers.
    Last year in Laredo, Customs and Border Protection (CBP) Officers 
seized 21.5 kilos of cocaine and more than 33 kilos of 
methamphetamines.
    And where there are drugs flowing north, you can be sure to find 
guns and money flowing south.
    Make no mistake; the cartels running drugs across the Southwest 
Border are highly sophisticated criminal organizations with one goal--
to make as much money as possible. They will use any means necessary to 
ensure their poison reaches the interior of our Nation.
    The men and women of CBP are the last line of defense in our fight 
to stop the drugs from entering the United States. These officers have 
a difficult task: Separate illicit cargo and travelers from the 
legitimate ones with minimal interruption to the flow of legal trade.
    After September 11, traffic across some ports of entry came to a 
standstill due to more detailed questioning of travelers and inspection 
of cargo. This resulted in long truck delays and caused plant closures, 
threatening companies which rely on such shipments. In the immediate 
aftermath of a terrorist attack, this may have been a reasonable 
response, but consistent delays at the border costs time and money, 
driving up business costs. We do not want to experience this again.
    Balancing trade and security requires the smart application of 
technology, personnel, and infrastructure. We must adequately secure 
the border in order to facilitate trade.
    Over the last few years the Department of Homeland Security (DHS) 
has increased the number of CBP Officers. While these men and women may 
be needed to address specific gaps, it is clear that we cannot secure 
the ports of entry only with boots on the ground.
    A key to security is the maintenance and expansion of 
infrastructure. Our Nation's ports of entry need modernization. We 
cannot increase capacity if there are not enough truck lanes, passenger 
lanes, and facilities to conduct secondary screening. Especially in 
these difficult budget times it is important that funds be targeted to 
maximize both trade and security.
    New forms of technology would allow CBP to more efficiently use its 
manpower. Every year over 1.6 million trucks pass through the Laredo 
port of entry. We cannot physically inspect, or scan, every single one 
of these trucks. We must separate travelers and cargo through trusted 
shipper and traveler programs that allow CBP to focus manpower and 
other assets to find illicit goods and weapons.
    Technologies, such as non-intrusive inspection equipment, allow CBP 
to effectively screen the large volume of travel and commerce at the 
border. Additional tools, such as license plate readers give officers 
the ability to discern patterns from the frequency and time of 
crossings.
    While technology has increased our ability to screen cargo and 
passengers more effectively, I am concerned that the Department still 
lacks a truly strategic approach to research and development of 
technologies that will enhance the way we secure ports of entry in the 
future. CBP lacks a technology innovation plan, which would inform 
industry of its technological needs, and allow industry to better 
recognize the needs of the Department, in a way to better leverage 
scarce funding.
    What is missing is a strategy to secure the border, both at and 
between the ports of entry--technology must be an integral part of that 
plan.
    The purpose of our hearing today is to examine ways to better 
utilize technology to secure our ports of entry and ensure the 
efficient flow of trade across our borders.
    I look forward to the witness's testimony to understand the local 
perspective of the challenges that Laredo faces, and what the Congress 
can do to help.

    Mr. McCaul. So with that, I want to recognize the Ranking 
Member, my dear friend and colleague from this great State and 
this great City of Laredo, Mr. Henry Cuellar.
    Mr. Cuellar. Thank you very much, Mr. Chairman.
    Again, I'm pleased that the Committee of Homeland Security, 
the Subcommittee on Border, Maritime, is having this meeting 
here in Laredo to examine ways to facilitate trade and enhance 
security at our Nation's ports of entry.
    I certainly want to thank the Chairwoman, actually, Ms. 
Miller, Candice Miller, the Subcommittee Chairwoman; and I 
certainly want to thank also my good friend, Michael McCaul. 
Mike and I go back, we started off as classmates back in 2005, 
and I certainly appreciate his good friend--his good friendship 
and, of course, working together on issues that are important 
to the State of Texas.
    Earlier as Representative McCaul had said that we visited 
the World Trade Bridge. We saw the lines of trucks waiting to 
cross into the United States, viewed the existing 
infrastructure at the bridge, talked to some of the Customs and 
Border Protection Officers who process travelers and cargo 
entry into the United States. We certainly want to thank Mr. 
Garza and all of his men and women that work very hard to make 
sure that we facilitate the trucks that are coming in.
    We had an opportunity to visit one of the bridges today, 
it's important to note that the U.S. Customs and Border 
Protection Laredo Field Office is made up of eight ports entry 
with 32 border crossings. These include passenger and cargo 
crossings via bridges, airports, railroads, dams, and one 
seaport and ferry extending from Brownsville to Del Rio.
    The Laredo Field Office processes the largest amount of 
commercial traffic along the entire U.S.-Mexico border--
actually, across the United States. I think Detroit was No. 3, 
I think Laredo just became No. 3, which is now the largest 
inland port in the whole United States, with more than $1.6 
billion in fees, duties, and tariffs collected--that was 
collected in fiscal year 2011. On a typical day, the Laredo 
Field Office processes 189,000-plus passengers and pedestrians, 
5,611 entries of goods via truck, rail, and commercial 
aircraft.
    Those of us who call Laredo home understand the importance 
of this cross-border travel and commerce not just to our 
community or border region but really to the entire country.
    Mexico is the United States' third-largest trading partner, 
second-largest export market with an average of about $1 
billion in two-way trade between the countries every single 
day. Our trade with Mexico also sustains 6 million jobs in the 
United States. So we have 6 million jobs here in the United 
States that have been created because of the trade that we have 
with Mexico, making it--making Mexico vital to our own economic 
prosperity.
    At the same time, border residents, in particular, are 
aware of the challenges that we face with respect to expanding 
infrastructure with adding new technology, hiring more Customs 
and Border Protection Officers to stand the bridges and 
facilitate trade and ensure security; and one of my sayings--I 
think you've heard me--we do a good job in hiring the men and 
women in green, but we need to do more to hire the men and 
women in blue, which are the ones that take care of our bridges 
and make sure that we have the retail, the tourism, and the 
commerce that is so important to our State of Texas.
    I hope to hear from our first panel of witnesses about what 
can be done to maximize our limited personnel, technology, and 
infrastructure resources; particularly, those, as we see the 
tight budgetary times that we live in right now. I also hope to 
hear that--from what we hear in their own respective agencies 
that--that we're doing the most that we can with these limited 
resources and we're planning for the future. Cooperation among 
our various Federal, State, and local agencies, and 
stakeholders will be the key to our success in this particular 
effort.
    Just before the hearing we had a meeting with 
representatives from law enforcement during our--we had a 
working lunch there. We heard from Federal judges--or a Federal 
judge, and different Federal agencies, State and local 
agencies, where we talked about the different efforts and we 
talked about the effort to make sure that the City of Laredo--
and you've heard me say this--if you compare the crime rate 
here in Laredo compared to where I work in Washington, DC, the 
crime rate in Washington, DC is higher than the crime rate here 
in Laredo. If you look at the average crime rate on the border 
compared to the National crime rate and the crime rate here at 
the border is lower than the National crime rate, and whether 
you look at murders or you look at assaults or whatever the 
case be, but, nevertheless, the State, Federal, and local folks 
here are working very hard to make sure that we keep the 
violence--we know what's happening in Mexico, no ifs, no buts, 
but we're working hard to make sure that that spillover doesn't 
come over. Is it at 100 percent proof of spillover? No. You 
know, there are instances where we see some of their problems, 
but I think that it really speaks loudly of the men and women 
both at the State, Federal, local law enforcement have been 
doing a good job, making sure that it stays on the other side.
    I also hope, from our second panel of witnesses, that we 
hear viewpoints on the current status of cross-border trade and 
security, what they believe that can be done to make sure that 
we move forward on this issue.
    Whether you're a duty-free store, whether you sell goods 
there at Wal-Mart, or whether--whatever the case might be, 
hotel, whatever it might be--look at our chamber president and 
our board and our director here--we want to make sure that we 
find the right balance between trade and security, which is, 
again, important to our community.
    Finally, the last thing I want to say is that the Federal 
Government can't do it by itself, the State government can't do 
it by itself, the local government can't do it by itself, but I 
think by working together--this is one thing that Mike and I 
have been talking about, is, to have more cooperation, 
communication between the Federal, State, and local folks to 
make sure that we also bring in the private sector; because the 
last thing we want, with all due respect, is a bureaucrat 
thinks that he or she knows better than the private sector. So 
we've all got to work together to make sure that we're able to 
do this, so I want thank Mr. McCraw, I want to thank Mr. Garza, 
and, of course, the second witnesses that are coming up--also 
that are coming up, but I certainly want to thank my good 
friend, Michael, for being here and hosting this meeting here 
today.
    So thank you very much for allowing us to be here with you 
today.
    Mr. McCaul. I think Congressman Cuellar, he's been a great 
friend and partner to work with on these very important issues 
that we face as a Nation, and so thank you for your friendship 
as well.
    I want to also thank the Laredo Community College for 
hosting this hearing; and with that, I'm going to introduce our 
witnesses for today.
    First, Mr. Gene Garza was appointed as the director for the 
Laredo Field Office in January 2011. He oversees the operation 
of eight ports of entry extending from Brownsville, Texas, to 
Del Rio, Texas; and previously, he was the port director of the 
Laredo port of entry: First with the U.S. Customs Service and 
then with U.S. Customs and Border Protection.
    Mr. Garza, thank you for being here today; and we've spent 
the entire day together. It's been real pleasure to be with 
you, sir.
    Mr. Garza. Yes, sir. Thank you.
    Mr. McCaul. Next we have also another friend and colleague, 
Mr. Steve McCraw, he's the director of the Texas Department of 
Public Safety.
    He began his career as a State trooper, was a special agent 
in the FBI, was in the SAC in the San Antonio division where I 
had the great honor and privilege to work with you as a Federal 
prosecutor. He was also the Governor's director of the Office 
of Homeland Security, and, of course, today heads up the 
Department of Public Safety. Mr. McCraw, we certainly 
appreciate you being here today as well.
    Mr. McCraw. I appreciate it.
    Mr. McCaul. With that, I recognize Mr. Garza for his 
testimony.

 STATEMENT OF GENE GARZA, DIRECTOR OF FIELD OPERATIONS, LAREDO 
  FIELD OFFICE, OFFICE OF FIELD OPERATIONS, U.S. CUSTOMS AND 
                       BORDER PROTECTION

    Mr. Garza. Thank you, sir. Chairman McCaul, Ranking 
Congressman Cuellar, it is a privilege and an honor to appear 
before you today to discuss the work of Customs and Border 
Protection; particularly the tremendous dedication of men and 
women of the Laredo Field Office. I am Gene Garza, I'm the 
director of field operations.
    The Laredo field operations includes eight points of entry 
that span the border from the outer edge of the Big Bend 
National Park all the way to Brownsville, Texas, and extends 
east close to San Antonio and on the east side of Austin.
    On an average day, the CBP Officers within the Laredo Field 
Office process nearly 130,000 passengers, 60,300 conveyances, 
and seize 431 pounds of drugs. During the fiscal year of 2011, 
the Laredo Field Office processed almost 50 million travelers, 
22 million vehicles and conveyances, and seized more than 5,500 
pounds of cocaine, 635 pounds of heroin, and 150,000 pounds of 
marijuana, and over $13.3 million in currency, and intercepted 
110,000 quarantined plant material, and 13,600 actionable/
reportable pests.
    CBP has worked to improve the process for all visitors and 
trade entering the United States. We have simultaneously 
increased security while expediting the flow of legitimate 
trade and travel. Today I would like to highlight the 
importance--improvements made here at the Laredo Field Office.
    In Laredo, CBP has undertaken a number of infrastructure 
improvement projects. Several projects have been completed, or 
are near completion, with the focus of improvements for the 
pedestrian traffic, vehicle traffic, bus inspection, and lane 
flow throughput at the Laredo bridges and CBP's ports of entry. 
Laredo Bridge 1 we have made improvements to address the 
pedestrian flow.
    We upgraded pedestrian secondary processing areas at the 
Laredo Bridge 3, Colombia, and opened several new primary 
inspection booths, and one new exit lane at the World Trade 
Bridge.
    At the Lincoln-Juarez Bridge three additional lanes--non-
commercial lanes are largely complete and expect to be open by 
the summer. The expansion has been collaborative efforts 
between CBP, GSA, TxDOT, and the City of Laredo, and will 
significantly expand vehicle processing capacity at Bridge 2.
    Thanks to the continued support of Congress, CBP now has 
301 large-scale non-intrusive inspection systems deployed 
throughout our ports of entry with 110 of those deployed on the 
Southwest Border.
    Additionally, CBP has deployed 61 backscatter X-ray vans to 
the Southwest Border land ports of entry, which provide our 
officers with a mobile, maneuverable detection system that can 
scan a number of vehicles efficiently and simultaneously.
    To date, CBP has used and deployed systems to connect over 
50--56.5 million NII examinations resulting in the seizure of 
3.3 million pounds of narcotics and over $47.5 million in 
undeclared currency.
    Used in combination with our layered enforcement strategy, 
these tools provide CBP with a significant capability to detect 
contraband while enabling our staff to efficiently process a 
significant volume of passenger and trade.
    CBP works with the trade community through Customs and 
Trade Partnership Against Terrorism (C-TPAT), a voluntary 
public-private partnership program wherein members of the trade 
community agree to adopt tighter security measures throughout 
their international supply chain and, in return, are afforded 
benefits such as reduced examinations, front-of-the-line 
examination privileges. The initiative in conjunction with the 
opening of seven new commercial primary lanes at World Trade 
will increase the facilitation of legitimate trade through the 
Laredo port of entry.
    To facilitate travelers, CBP offers four trusted traveler 
programs, including SENTRI. The trusted traveler program 
assists CBP in segmenting risks and facilitating the flow of 
legitimate travel. There are currently 44,000 SENTRI 
participants, who cross at ports of entry within the Laredo 
Field Office, and eight lanes specifically dedicated for SENTRI 
participants to facilitate travel.
    We also implemented Ready Lanes to assist the facilitation 
of travelers with RFID-enabled technology. We need compliance 
documents. In 2011, Ready Lanes were opened in Laredo, Texas. 
Currently, the Laredo Field Office has Ready Lanes at seven 
bridges. The Lincoln-Juarez Bridge at the Port of Laredo can 
open two additional Ready Lanes during peak hours if required. 
Vehicles throughput in the Ready Lanes has increased as much as 
25 percent, and wait times for travelers with the RFID-enabled 
documents have been reduced to an average of about 12 seconds 
per vehicle. At the Lincoln-Juarez Bridge, approximately 50 
percent of the traffic flow, right now, crosses either through 
the Ready Lane or the SENTRI Lane.
    The Laredo Field Office has implemented an aggressive, 
multi-pronged strategy to mitigate wait times. This includes 
recognizing peak processing periods that have historically 
occurred, such as holidays, season pick--peaks, making 
operational adjustments before peaks occur. The Laredo Field 
Office also works with CBP stakeholders to identify additional 
facilitation measures.
    For example, the Laredo Field Office coordinates with our 
Mexican counterparts on the arrival of commercial bus traffic 
during peak times to avoid traffic jams on the bridge, works to 
move private school buses at the Port of Del Rio to a dedicated 
lane in the morning to reduce wait times for the vehicle 
traffic to process more buses efficiently.
    Chairman McCaul and Ranking Member Cuellar, thank you for 
the opportunity to testify about the work of Customs and Border 
Protection within the Laredo Field Office to protect our 
Nation's borders while facilitating the flow of legitimate 
trade and travel. I will be glad to answer any questions y'all 
may have for me.
    [The prepared statement of Mr. Garza follows:]

                    Prepared Statement of Gene Garza
                              May 1, 2012

    Chairman McCaul, Ranking Member Cuellar, Members of the 
subcommittee, it is a privilege and an honor to appear before you today 
to discuss the work of U.S. Customs and Border Protection (CBP), 
particularly the tremendous dedication of our men and women in the 
field, both at and between our ports of entry.
    I would like to begin by expressing my gratitude to Congress for 
its continued support of the mission and people of CBP. It is clear 
that Congress is committed to providing CBP with the resources we need 
to increase and maintain the security of our borders. We greatly 
appreciate your efforts and assistance, and I look forward to 
continuing to work with you on these issues in the future.
    The creation of CBP, which established a single, unified border 
agency for the United States, is a profound achievement, and our 
responsibilities are immense and challenging. CBP is responsible for 
protecting more than 3,900 miles of border with Canada and 1,900 miles 
of border with Mexico, and 2,600 miles of shoreline. In fiscal year 
2011, CBP Officers at 331 ports of entry inspected 340 million 
travelers and more than 105.9 million cars, trucks, buses, trains, 
vessels, and aircraft. Each day, CBP Officers process over 932,000 
travelers entering the United States at our air, land, and sea ports of 
entry and inspect more than 64,000 truck, rail, and sea containers.
    In fiscal year 2011, CBP seized 5 million pounds of narcotics, 
including nearly 370,000 pounds seized at the ports of entry. These 
numbers demonstrate the effectiveness of our layered approach to 
security. Violent crime in border communities has remained flat or 
fallen in the past decade, according to the Federal Bureau of 
Investigation's (FBI) Uniform Crime Report, and some of the safest 
communities in America are at the border. In fact, violent crimes in 
Southwest Border counties overall have dropped by more than 40 percent 
and are currently among the lowest in the Nation per capita, even as 
drug-related violence has significantly increased in Mexico.
    On an average day, CBP Officers within the Laredo Field Office, 
which incorporates ports of entry spanning from the outer edge of Big 
Bend National Park to Brownsville, process nearly 130,000 passengers 
and 60,300 conveyances and seize 431 pounds of drugs. During fiscal 
year 2011, the Laredo Field Office processed almost 50,000,000 
travelers and 22,000,000 cars, trucks, buses, trains, ferries, vessels, 
and aircraft, seized 5,465 lbs of cocaine, 635 lbs of heroin, 150,000 
lbs of marijuana, and over $13,300,000 in currency, and intercepted 
110,000 quarantined plant material and 13,600 actionable/reportable 
pests.
    Working with our partners, our strategy is to secure our Nation's 
borders by employing and enhancing our layers of defense throughout the 
entire supply chain (for goods) and transit sequence (for people)--
starting from their points of origin, movement to the United States, 
arrival and entry at our borders, routes of egress, and ultimately to 
final destinations in the United States. This strategy relies upon 
increased intelligence and risk-management strategies regarding the 
movement and flow of both travelers and trade. We accomplish our 
mission of expediting legal trade and travel by separating the 
``knowns'' from the ``unknowns.'' This risk segmentation allows us to 
enhance security by focusing more attention on stopping illegitimate 
trade and those who seek to do us harm, while at the same time 
facilitating legitimate travel and commerce. Security and prosperity 
are mutually reinforcing, and the United States and Mexico are closely 
linked by a common interest in robust security and growing economies. 
DHS is committed to continuing to work with the Government of Mexico to 
foster a safe and secure border zone, while facilitating the legal 
trade and travel that helps our shared border region prosper.

                             INFRASTRUCTURE

    CBP has long recognized the need to maintain facilities and 
infrastructure that effectively support our mission requirements. 
Modern facilities must address our constantly evolving border 
functions, increasing traffic volumes and staffing levels, and new and 
updated technologies and equipment. To that end, CBP has implemented a 
facility investment planning process, and capital improvement plan for 
land border ports of entry. This process combined with the Regional 
Master Plan concept, which brings all stakeholders together from both 
sides of the border, ensures that facility and real property funding is 
allocated in a systematic and objective manner, and is prioritized by 
mission critical needs that meet the demands from a regional 
perspective.
    In Laredo, CBP has undertaken a number of improvement projects to 
assist in expediting the flow of legitimate trade and travel. Several 
projects have been completed, or are nearing completion, with the focus 
of improvements on pedestrian traffic, vehicle traffic, bus inspection, 
and lane flow throughout the Laredo Bridges and CBP's ports of entry 
(POE). At Laredo Bridge 1, (Gateway to the Americas Bridge), 
improvements to address pedestrian processing flow have been completed. 
These efforts included rerouting pedestrian traffic from the current 
pedestrian walkway to the Secondary Inspection area where five new 
mobile pedestrian processing stations were installed. The new stations 
became operational on September 19, 2011 and process at least 8,000 
travelers per day.
    Additional projects to improve the facilities and inspectional 
technologies at the Port of Laredo include upgrades to the ports' 
pedestrian secondary processing area at Laredo Bridge 3 (Colombia 
Solidarity Bridge), which was completed in November 2011; and opening 
seven new primary inspection booths and one new exit lane at the World 
Trade Bridge port of entry, an accomplishment commemorated by officials 
from the City of Laredo with a ribbon-cutting ceremony on May 6, 2011.
    At Lincoln-Juarez Bridge (Laredo Bridge 2), three additional non-
commercial lanes at the Lincoln-Juarez POE are largely complete and 
expected to open in summer 2012. This expansion has been a 
collaborative effort between CBP, GSA, TX DOT, and the City of Laredo 
and will significantly expand vehicle processing capacity, helping to 
alleviate vehicle congestion at this very important crossing.
    CBP is also working closely with GSA regarding the feasibility and 
design of a new bus processing facility. This project will result in a 
10,000-square-foot to 15,000-square-foot bus and passenger processing 
area with individual bus stalls (primary and secondary), pedestrian 
inspection lanes, and a separate inspection area within a CBP-secured 
facility.
    Funding through the American Recovery and Reinvestment Act have 
allowed for additional port improvements. This includes two new port 
facilities; at Amistad Dam and at Los Ebanos Ferry, respectively. CBP 
also oversaw significant modifications, including an outbound facility, 
at Falcon Dam. However, due to the current fiscal environment, CBP's 
construction budget is not projected to have funds that will allow the 
agency to initiate major new construction contracts. CBP's fiscal year 
2012 appropriation for Construction and Facilities Management is 
limited to sustainment activities, basic building services, and 
operations of CBP's existing facilities portfolio and real property 
inventory. The fiscal year 2013 budget request similarly defers new 
construction projects.

                           TRADE FACILITATION

    As Secretary Napolitano has stated, our homeland security and our 
economic policies are complementary--and to the extent possible, 
security measures should be designed to facilitate the safe and 
efficient movement of people and goods while securing our critical 
infrastructure. Our economy depends in part on our ability to secure 
and facilitate the flow of people and goods to and from our borders. 
Border security policies must do both: Protect against threats while 
allowing the movement of legitimate trade and travel across our 
borders, which drives trade and tourism revenue that supports hundreds 
of thousands of jobs.
    The ability to secure the flows of goods, conveyances, and people 
to and through the United States is crucial to CBP's success in 
protecting our Nation. The 331 ports incorporate highly technical 
equipment to prevent items from illegally entering the United States by 
utilizing Non-Intrusive Inspection units to detect illicit goods and 
contraband and Radiation Portal Monitors which screen for nuclear and 
radiological threats. Last year we deepened and broadened our 
coordination with Canada to speed inspection of goods such as car parts 
so that factories on both sides of the border can operate more 
efficiently. We have continued to work closely with our Mexican 
counterparts to protect shared critical infrastructure and expand 
trusted traveler and shipper programs. These efforts not only 
facilitate legitimate trade, but they are also critical in stopping 
illegal goods from entering the country--goods that can undermine 
domestic businesses that play by the rules.
    Thanks to the continued support of Congress, CBP now has 301 large-
scale Non-Intrusive Inspection (NII) systems deployed to our ports of 
entry. NII are imaging systems that serve as a force multiplier 
enabling CBP Officers to detect possible anomalies between the contents 
of a container and the manifest. Of the 301 NII systems deployed, 55 
are deployed on the Northern Border and 110 are deployed on the 
Southwest Border ports of entry, with the remainder at the Nation's 
airports and seaports and Border Patrol checkpoints. Additionally, CBP 
has deployed 61 backscatter X-ray vans to Southwest Border land ports 
of entry, which provide our officers with a mobile, maneuverable 
detection system that can scan a number of vehicles efficiently and 
simultaneously. To date, CBP has used the deployed systems to conduct 
over 56.5 million NII examinations resulting in over 10,500 narcotic 
seizures with a total weight of 3.3 million pounds of narcotics, and 
the seizure of over $47.5 million in undeclared currency. Used in 
combination with our layered enforcement strategy, these tools provide 
CBP with a significant capability to detect contraband, including 
illicit nuclear or radiological materials. The deployment of NII 
technologies has also enabled our staff to efficiently process a 
significant volume of passengers and trade.
    NII technologies are the only available and effective means of 
screening the large volume of rail traffic entering the United States 
from Mexico. CBP currently has rail imaging systems deployed to all 
eight Southwest Border commercial rail crossings. CBP is currently 
installing a new, state-of-the-art imaging system, which should be 
completed this summer, at Laredo. These systems currently provide CBP 
with the capability to image and scan 100 percent of all commercial 
rail traffic arriving in the United States from Mexico. The rail NII 
imaging technology is bi-directional, which provides CBP with the added 
capability to image southbound trains. In March 2009, CBP began 
conducting 100 percent outbound screening of rail traffic departing the 
United States for Mexico for the presence of contraband, such as 
explosives, weapons, and currency. Since that time, there have been 215 
seizures along the Southwest Border as a result of screening of 
outbound rail cars, which totals approximately 43,000 pounds of 
marijuana.
    Through partnerships with the trade community, CBP has had a 
positive impact on commercial trade. The primary focus of CBP's efforts 
with its U.S. Government partner agencies is to advance the adoption of 
DHS's risk-based approach to reduce barriers to efficient and safe 
commercial activity and to support U.S. job development. As the 
Executive Agent at the border for 46 Federal agencies, we are currently 
pursuing two significant initiatives with our U.S. Government partners: 
Increased information sharing, leveraging existing inspection and 
regulatory expertise, to facilitate admissibility determinations; and 
developing trust-based partnerships across the Federal Government.
    CBP works with the trade community through the Customs and Trade 
Partnership Against Terrorism (C-TPAT), a voluntary public-private 
partnership program wherein members of the trade community agree to 
adopt tighter security measures throughout their international supply 
chain and in return are afforded benefits such as reduced exams, front-
of-line examination privileges to the extent possible and practical, 
and an assigned Supply Chain Security Specialist who helps them 
maintain compliance. C-TPAT has enabled CBP to leverage private-sector 
resources to enhance supply chain security and integrity. This 
initiative in conjunction with previous mentioned opening of seven new 
commercial primary lanes at World Trade Bridge will increase the 
facilitation of legitimate trade through the Port of Laredo.
    CBP conducts records checks on C-TPAT applicants in its law 
enforcement and trade databases and ensures that the applicants meet 
the security criteria for their particular business sector. Applicants 
who pass extensive vetting are certified into the program. Using a 
risk-based approach, CBP Supply Chain Security Specialists conduct on-
site visits of foreign and domestic facilities to confirm that the 
security practices are in place and operational.
    C-TPAT has been a success--membership in this program has grown 
from 7 companies at its implementation in 2001 to more than 10,000 as 
of April 5, 2012. Additionally, CBP is working with foreign partners to 
establish bi-national recognition and enforcement of C-TPAT. CBP 
currently has signed mutual recognition arrangements with New Zealand, 
Canada, Jordan, Japan, and Korea and is continuing to work towards 
similar recognition with the European Union, Singapore, Taiwan, and 
other countries.

                          TRAVEL FACILITATION

    To facilitate pre-approved, low-risk travelers into the United 
States, CBP offers four trusted traveler programs. The Secure 
Electronic Network for Travelers Rapid Inspection (SENTRI) offers 
eligible travelers expedited entry into the United States through 
designated lanes at the U.S.-Mexico land border ports. Membership in 
SENTRI is valid for 5 years and costs $122.25 to apply for the program. 
Beginning in December 2010, all U.S. citizens and lawful permanent 
residents currently enrolled in SENTRI were extended Global Entry 
benefits, our trusted traveler program in the air port of entry 
environment, at no additional fee. There are currently over 44,000 
SENTRI participants who cross at ports of entry within the Laredo Field 
Office and eight lanes specifically dedicated for SENTRI participants 
to facilitate travel into the United States.
    At land ports of entry, we have also implemented Ready Lanes to 
assist in the facilitation of travelers. A Ready Lane is a vehicle 
primary lane that only accepts travelers using radio frequency 
identification (RFID)-enabled travel documents. In June 2010, CBP 
launched a Ready Lane pilot at the Ambassador Bridge in Detroit. In 
October 2010, the first Ready Lane along the Southern Border opened in 
Del Rio, Texas, and in December 2010 a Ready Lane opened in El Paso, 
Texas. In July 2011, Ready Lanes were opened in Laredo, Texas. 
Currently, the Laredo Field Office has Ready Lanes at seven bridges and 
the Lincoln Juarez Bridge at the Port of Laredo can open an additional 
two Ready Lanes during peak hours if required, for a total of nine 
Ready Lanes throughout the Field Office. The results to date suggest 
that this program successfully expedites the flow of legitimate travel. 
Vehicle throughput has increased as much as 25 percent in these lanes, 
and wait times for travelers with RFID-enabled documents have been 
reduced by an average of 12 seconds per vehicle. Along the Southern 
Border more than 25,000 vehicles and 44,000 travelers (more than 34 
percent of all vehicle traffic) use Ready Lanes each day. For example, 
at the Lincoln-Juarez Bridge, approximately 50 percent of traffic now 
crosses in either the Ready Lane or SENTRI lane. Additionally, CBP 
actively manages lanes to ensure that travelers utilizing Ready Lanes 
experience wait times of no more than 30 minutes. CBP plans to deploy 
Ready Lanes to additional high-volume land crossings in the near 
future.
    The Laredo Field Office has implemented an aggressive, multi-
pronged strategy to mitigate wait times. This includes recognizing peak 
processing periods that have historically occurred, such as holidays 
like Christmas and Holy Week in addition to seasonal peaks such as 
Spring Break and the summer travel period, and making operational 
adjustments well before peaks occur. The Laredo Field Office also works 
with CBP's stakeholders to identify additional facilitation measures. 
For example, the Field Office coordinates with our Mexico counterparts 
on the arrivals of commercial bus traffic during peak times to avoid 
traffic jams on the bridge, and works to move private school buses at 
the Port of Del Rio to a dedicated lane in the morning to reduce wait 
times for vehicular traffic and to process the buses more efficiently.

                         STAFFING AND TRAINING

    We have no greater asset than our human resources and we are 
committed to continuing to recruit, hire, develop, and sustain a 
premier officer corps. To achieve this goal, we are currently refining 
the recruitment and hiring processes, improving our retention 
capabilities, and enhancing our deployment and staffing processes.
    We have developed a Workload Staffing Model (WSM) to better align 
resource needs and requests against levels of threat, vulnerabilities, 
and workload. By using the model we can adjust optimal staffing levels 
to changes in workload, processing times, new technologies and 
processes, mandated requirements, and threats. Once the WSM is 
finalized, CBP would be happy to brief the committee on this model. The 
staffing model alone does not determine how our officers are allocated; 
it is merely a tool to assist us in determining the optimum allocation 
of officers at each of our land, sea, and air ports.
    CBP has also implemented numerous programs, initiatives, and 
training to build our officer corps and enable officers to more 
effectively respond to threats of terrorism, better utilize 
intelligence information, and continue to develop skills, streamline 
processes, and enhance inspection operations.
    We have developed and implemented a comprehensive training 
curriculum for CBP Officers and CBP Agriculture Specialists. This 
training curriculum includes basic academy training, as well as 
comprehensive, advanced, on-the-job, and cross-training courses. CBP 
continually strives to provide our front-line officers with recurrent 
and additional training to help them better perform their jobs. For 
example, CBP has extensive training in place for fraudulent document 
identification to help CBP Officers detect fraudulent documents and 
identify travelers who are using stolen travel documents--both in the 
CBP Officer academy and embedded in 40 additional courses.
    Recognizing the complexity of our mission and the broad border 
authorities of our agency, we have established specialty functions and 
teams that receive additional focused advanced training. For example, 
counterterrorism response teams were created for deployment within 
secondary inspection areas. These teams are provided with a new and 
intense training curriculum that teaches our officers how to detect 
deception and elicit information. We have also established targeting 
and analysis units, roving teams, and prosecution units. Our 
enforcement officers receive additional advanced training to develop 
expertise in the questioning of individuals suspected of being involved 
with organized smuggling of aliens or drugs, terrorism, and document 
fraud.
    To make the best use of our training time and resources, we train 
our officers when they need to be trained, and for the functions they 
are performing. This means that not every officer completes every 
cross-training module, but rather each officer receives the training 
needed to do the job he or she is currently performing. CBP has 
identified Field Training Officers to assess the training needs of the 
CBP Officers to ensure that these CBP Officers are receiving the 
training they need to do their jobs, and that internal measures are in 
place to monitor and assess training needs and accomplishments Nation-
wide. CBP is constantly reviewing and revising its training, in 
accordance with the ever-changing border enforcement environment.

                               CONCLUSION

    Chairman McCaul, Ranking Member Cuellar, and Members of the 
subcommittee, thank you again for this opportunity to testify about the 
work of U.S. Customs and Border Protection. CBP is committed to 
continuing to secure our Nation's borders and safeguard our way of 
life. Your continued support of CBP helps ensure the security of our 
borders, and the safety of our Nation. I will be glad to answer any 
questions you may have.

    Mr. McCaul. Thank you, Mr. Garza.
    The Chairman now recognizes Mr. McCraw for his testimony.

 STATEMENT OF STEVEN C. MCCRAW, DIRECTOR, TEXAS DEPARTMENT OF 
                         PUBLIC SAFETY

    Mr. McCraw. Mr. Chairman, Ranking Member Cuellar, thank you 
for the opportunity to be here, and also to appear with Gene 
Garza, a clear leader in the law enforcement community, he does 
a great job and a great partner.
    From a Texas standpoint in terms of commerce, obviously, 
Mexico is our No. 1 trading partner, No. 2 for the United 
States; so trade is vitally important to the United States, 
but, also, to Texas in terms of Mexico. In fact, we are 
concerned. We do agree with the Chairman and the Senior Ranking 
Member of the committee that more technology and more resources 
on the bridge is value-added; because the most significant 
threat to commerce right now is the Mexican cartels, you know, 
holding our commerce hostage. They do so by exploiting an 
unsecured border with Mexico. We know they move ton quantities 
of drugs not just across the border and the border region but 
throughout the Nation.
    Right now the source of the overwhelming majority of drugs 
anywhere in the Nation is the result of--is the Mexican cartels 
moving it across these high-value smuggling markets at the 
Laredo Bridge. We just saw today, that international bridge is, 
unfortunately, for the cartels who are fighting over and dying 
for--worse, torturing, killing, and corrupting officials to 
obtain, maintain, expand the--these smuggling routes in the 
United States; and so from a Texas standpoint the use of these 
routes are problematic.
    We certainly would like to see leveraging more technology 
at the border in a more--in a way that empowers OFO Officers, 
the men and women in blue, the brave men and women in blue, 
with the tools that they could rapidly detect, you know, 
cocaine, marijuana, methamphetamine, and heroin, because those 
are the four drugs right now that are pouring across that 
border.
    I would say that from a Texas standpoint, in terms of 
priorities, obviously, you know that the State of Texas 
invested heavily in terms of border security; and they've done 
it for one reason, is that they understood, and leaders 
understood, and the legislature, and the Governor is that--is 
that to be proactive rather than reactive in a post-9/11 
environment is high-value, and it is worth investing in local 
law enforcement on the border, in local law enforcement 
communities, and State law enforcement to support them, to do 
Job 1: Protect its citizens from harm. Harm is, is that any 
form of violence that would stem from Mexican cartels and gangs 
that work with them on both sides of the border. That's Job 1.
    Job 2 is what can we do to support our Federal partners 
with their vitally important mission: Secure the border of the 
mission--the border of our Nation. We understand it's a 
sovereign responsibility, but what can we do to help? In doing 
Priority 2, it being so interrelated to Priority 1, it--there 
is a symbiotic relationship between those two priorities.
    The consequences. We can debate the consequences of an un-
secure border, but they're significant. Whether you look at it 
from a purely economic standpoint in terms of the impact of 
drug trafficking across the Nation, whether you look at it from 
human trafficking, which as I know you heard today about, you 
know, one of our troopers in the marine unit on one of our 
tactical boats was waved down by two individuals in distress 
and alerted them to a house they had been maintained in, and 
they were there with 40 other additional individuals, men and 
women, had been kept there for 3 days without food and water, 
and the women had been sexually assaulted. That's not just 
human trafficking, that's kidnapping, that's sexual assault. 
These are the types of crimes that when you have, you know, 
predators like the Mexican cartels operating in areas that you 
have--we're concerned about.
    We're concerned about criminal aliens. We talked a little 
bit about that today, and want to commend ICE--although he's 
not here--Jerry Robinette at the secure border--secure 
community initiatives. It has absolutely been useful from a 
Texas standpoint. Everybody that's been booked into a Texas 
jail has been checked against the IDENT database back in 
Vermont and determined whether those individuals have been, 
come in contact, or are criminal aliens.
    In fact, we've identified over 101,000 individuals that 
were criminal aliens that were responsible for over 331,000 
individual crimes ranging from murder, from kidnapping, 
terrorist threats, assaults as high--in fact, as high--murders 
as high as 1,600 murders by these criminal aliens. Unless you 
secure the border, some of these are recidivist, they're going 
to continue to come back across, and that's why border security 
is so important. That's why we appreciate your leadership in 
securing the border, providing these men and women the tools 
they need, but also the resources they need to secure that--to 
secure that border. I can assure you from a Texas Department of 
Public Safety standpoint, we'll stand by them, we'll do 
everything we can to support them; and, importantly, we don't 
want to forget this, because you talked about the low crime, 
the low crime along the Texas/Mexico border is because we've 
got a very, very competent local law enforcement community that 
works together and have dedicated their lives to protecting the 
citizens of their areas with a very dynamic and proactive 
patrol presence, and we're very thankful that we have that type 
of capability because, as you know, Texas is a law and order 
State.
    Thank you, sir.
    [The prepared statement of Mr. McCraw follows:]

                 Prepared Statement of Steven C. McCraw
                              May 1, 2012

    Good Morning Chairman McCaul, Congressman Cuellar, and other 
distinguished Members of the Subcommittee on Border and Maritime 
Security. My name is Steven McCraw. I am the Director of the Texas 
Department of Public Safety and I would like to thank you for the 
opportunity to testify before you today on this vitally important 
economic, public safety, and National security issue.
    The most significant vulnerability to the State of Texas remains an 
unsecure Texas/Mexico border. The Mexican cartels continue to exploit 
weaknesses in our border defenses including those at the 28 
international bridges that connect Texas with Mexico to reap the 
enormous profits generated by the smuggling of ton quantities of 
marijuana, cocaine, methamphetamine, and heroin into and throughout the 
United States to virtually every drug market in the Nation while 
smuggling tens of billions of dollars, weapons, and stolen vehicles 
back into Mexico. They also profit from kidnappings, extortions, major 
theft, and the smuggling and trafficking of people. The amount and type 
of violence committed by the Mexican cartels is unparalleled in 
organized crime. They have embraced barbaric terrorist tactics to 
intimidate and coerce their rivals, law enforcement, elected officials, 
journalists, military personnel, and the citizens of Mexico. And they 
continue to corrupt individuals and institutions to protect their 
criminal enterprise activities and themselves on both sides of the 
border.
    The Mexican cartels will continue to undermine the domestic 
security of Mexico and the safety and security of Texas and the Nation 
until the U.S. border with Mexico is secured at the International Ports 
of Entry (POEs), between the POEs and along our coast. They are highly 
adaptable and as security is increased in one area, they quickly 
exploit vulnerabilities in other areas, thus a comprehensive and fully 
integrated approach is essential.
    The Mexican cartels have long exploited the lines and limited CBP 
resources and technology at our POEs to move ton quantities of drugs 
into the United States and bulk cash, weapons, and stolen vehicles into 
Mexico. Large loads of drugs routinely cross the international bridges 
in trucks, buses, passenger vehicles and rail using a variety of 
concealment techniques. CBP interdicts thousands of large drug 
shipments attempting to cross the international bridges but they do not 
have near enough personnel and technology to prevent the Mexican 
cartels from continuing to exploit this serious vulnerability as 
evidenced in the seizures that occur beyond the POEs:
  <bullet> On March 29, 2012, U.S. Border Patrol agents at a checkpoint 
        located on U.S. 67 four miles south of Marfa seized 2,395.65 
        pounds of marijuana concealed in voids inside construction 
        equipment located on a flatbed trailer after it crossed into 
        Texas undetected at the Presidio Port of Entry.
  <bullet> On March 29, 2012, the Parker County Sheriff's Office seized 
        approximately 2,500 pounds of marijuana concealed inside 
        construction equipment that was being transported on a tractor-
        trailer at a truck stop on I-20.
  <bullet> On January 12, 2012, a Texas State Trooper stopped a 
        tractor-trailer traveling on U.S. 77 in Refugio County, 
        resulting in the seizure of 341 pounds of marijuana concealed 
        in the trailer with a cover load of limes that originated in 
        Veracruz, Mexico.
  <bullet> A Colorado High-Intensity Drug Task Force investigation 
        documented the use of buses to smuggle more than 45,000 pounds 
        of marijuana over 11 months that crossed at POEs in El Paso.
  <bullet> Within a 10-day span of time, a State Trooper patrolling 
        U.S. 59 in Wharton County seized 3,479 pounds of marijuana 
        concealed in a truck load of watermelons and another 4,235 
        pounds of marijuana concealed in a truck load of oranges.
  <bullet> On May 29, 2011 a Texas State Trooper seized 12,650 lbs. of 
        marijuana from a truck which had entered through the Phar POE.
  <bullet> The Mexican cartels also use the POEs to smuggle other drugs 
        as evidenced in the many CBP seizures at the POEs and Border 
        Patrol Checkpoints and by local and State law enforcement 
        officers patrolling the highways.
  <bullet> For example, a Texas State Trooper in Northern Texas seized 
        60 pounds of heroin that crossed a POE here in Laredo, Texas.
    Some of the highlights from last week include:
  <bullet> DPS Agents seizing 145 lbs. of cocaine concealed in the roof 
        of a commercial trailer traveling on U.S. 281 near Edinburg, 
        TX.
  <bullet> A State Trooper seizing 3,277.4 lbs. of marijuana concealed 
        in two large metal containers covered by wooden pallets in a 
        trailer pulled by a truck on U.S. 281 near San Manuel, TX.
  <bullet> CBP Officers at the Gateway to the Americas Bridge seizing 
        15.2 pounds of methamphetamine hidden within plastic containers 
        comingled with mole.
  <bullet> A CBP K-9 Officer near the Hidalgo POE seized 231.57 lbs. of 
        marijuana in four elongated bundles at a drainage area.
  <bullet> Matagorda County Sheriff's Office Deputies and Palacios 
        Police Department Officers seizing $1,200,000 in cartel cash 
        from a residence.
    Mexico is a highly-valued trade partner and legitimate commerce 
should not be held hostage by the Mexican cartels. Sufficient personnel 
and effective technologies are needed to deny the ability of the 
cartels to exploit these high-value smuggling routes while enabling the 
rapid and secure movement of people and merchandise through the POEs.
    The State of Texas clearly understands that securing our Nation's 
border with Mexico is the sovereign responsibility of the Federal 
Government and we commend the brave men and women of the U.S. Customs 
and Border Protection Service for the tremendous work they do on a 
daily basis to protect our Nation's borders from all threats with the 
resources they have been provided. The foremost priority of local and 
State law enforcement in Texas has been and will continue to be the 
protection of its citizens from all forms of Mexican cartel and gang-
related violence and our second priority is to assist our Federal 
partners in securing the Texas/Mexico border which is interrelated with 
our first priority.
    The Federal Government can secure our borders if sufficient 
personnel, technology, aircraft, and maritime assets are dedicated to 
this mission. Until then, the State of Texas will continue to support 
CBP with local and State law enforcement personnel, unified ground, 
air, and maritime patrol operations, centralized intelligence, 
decentralized information sharing and additional aviation, maritime, 
and tactical assets. The State will also dedicate investigative and 
prosecutorial resources and continue to execute the Cross-Border 
Violence Contingency Plans as needed because the CBP mission is too 
important to the State of Texas and the Nation.
    The consequences of an unsecure border with Mexico are serious:

    1. Nation-wide availability and affordably of marijuana, cocaine, 
        methamphetamine, and heroin.

    <bullet> According to the Department of Justice's 2011 National 
            Drug Threat Assessment the abuse of several major illicit 
            drugs, including heroin, marijuana, and methamphetamine, 
            appeared to be increasing, especially among the young. And 
            the estimated economic cost of illicit drug use to society 
            for 2007 was more than $193 billion which reflected direct 
            and indirect public costs related to crime ($61.4 billion), 
            health ($11.4 billion), and lost productivity ($120.3 
            billion).
    <bullet> The DOJ Assessment states that Mexican-based Trans 
            National Criminal Organizations (TCOs) dominate the supply, 
            trafficking, and wholesale distribution of most illicit 
            drugs in the United States and the reasons for the Mexican 
            organizations' dominance include their control of smuggling 
            routes across the U.S. Southwest Border and their capacity 
            to produce, transport, and/or distribute cocaine, heroin, 
            marijuana, and methamphetamine.
    <bullet> The collective local, State, and Federal law enforcement 
            drug seizures within the Texas border region increased by 
            57% from 2008 to 2011 which supports the findings made in 
            the 2011 DOJ National Drug Threat Assessment.

                                              OPERATION BORDER STAR
----------------------------------------------------------------------------------------------------------------
                                                                                                  Percent Change
                                                                   2008 (Pounds)   2011 (Pounds)    2008 v 2011
----------------------------------------------------------------------------------------------------------------
Marijuana.......................................................       1,051,246       1,658,017          +57.65
Meth............................................................             553           2,058         +272.15
Cocaine.........................................................          10,849          11,402           +5.1
Heroin..........................................................              66             495         +650
                                                                 -----------------------------------------------
      TOTAL DRUGS...............................................       1,062,714       1,671,972          +57.33
----------------------------------------------------------------------------------------------------------------

    2. The Empowerment of the Mexican cartels who threaten the domestic 
        security of Mexico.

    <bullet> The Mexican cartels are motivated by the billions of 
            dollars in profit from drug and human smuggling with 
            estimates ranging as high as $39 billion a year. The 
            cartels use these enormous profits to battle each other and 
            the Government of Mexico.
    <bullet> It is estimated that over 48,000 people in Mexico have 
            lost their lives since 2006 as the cartels fought to gain 
            and or maintain control of the highly lucrative smuggling 
            routes into the United States. As long as the border 
            remains unsecure, the Mexican cartels will continue their 
            campaign of violence and corruption along its Northern 
            Border and Texas must remain vigilant as it shares 64% of 
            the border with Mexico.

    3. It provides Texas prison gangs resources to expand their 
        criminal operations on both sides of the border.

    <bullet> According to the Department of Justice gang suppression, 
            prevention, and corrections programs cost the Nation more 
            than $5.5 billion each year and that the toll exacted by 
            gang activity in lives lost and damage to the social fabric 
            of communities is certainly higher.
    <bullet> The U.S. Department of Justice (DOJ) spends more than $1 
            billion a year to suppress gang-related criminal activity 
            and at least $275 million a year on gang prevention 
            programs, according to 2009 DOJ information.
    <bullet> An estimated $4.2 billion a year is spent on new and 
            repeat incarcerations of gang members in Federal and State 
            correctional facilities and the Bureau of Justice 
            Statistics has reported that gang members were responsible 
            for approximately 4,323 homicides between 2005 and 2009.
    <bullet> The number of Texas prison gangs working directly with the 
            Mexican cartels has increased from 4 to 13 within 2 years.
    <bullet> The percentage Texas prison gang members incarcerated at 
            the Texas Department of Criminal Justice system for violent 
            offenses is 62%.

    4. It increases the risk of our school children along the Texas/
        Mexico border of being corrupted by the cartels.

    <bullet> The Texas border region comprises 9.7% of the State's 
            population but has 19.2% of the juvenile felony drug 
            referrals and 21.8% of the juvenile felony gang referrals.
    <bullet> Children as young as 12 years old have been paid to 
            transport drugs in stolen vehicles and 25 students in one 
            high school in a Texas border county were transporting 
            drugs for the cartels.

    5. It enables the cartels to conduct drug and human smuggling 
        operations on Texas ranches, farms, and cities throughout the 
        State increasing the risk to the public and law enforcement.

    <bullet> There have been over 2,065 high-speed pursuits in the 
            border region, some involving cartel blocking cars, 77 
            instances of Caltrops deployed to disable patrol cars, and 
            62 pursuits ending with the drug loads being driven into 
            the Rio Grande River and met by cartel boat retrieval 
            teams.
    <bullet> Seventy-three local, State, and Federal law enforcement 
            officers have been shot at from Mexico in 53 separate 
            incidents while attempting to interdict drug loads on the 
            Rio Grande River and there have been 26 documented cartel-
            related murders and 22 kidnappings.

    6. It increases the trafficking of people in the United States.

    <bullet> The number of Border Patrol illegal alien arrests in Texas 
            decreased from 175,595 in 2008 to 125,821 in 2011. However, 
            others who were not arrested fell victim to human 
            traffickers and were kidnapped, extorted, compelled into 
            prostitution, and forced into indentured servitude. These 
            crimes are seldom reported and when they are they are not 
            reflected in UCR Index Crimes.
    <bullet> A recent example illustrates the seriousness of the 
            problem. On April 9, 2012 a Texas State Trooper assigned to 
            the Tactical Marine Unit was flagged down by two 
            pedestrians in distress who identified a residence where 
            they were held against their will. Thirty-eight illegal 
            aliens were rescued from the residence after being held 
            captive for 3 days without food. The females being held 
            captive had been sexually assaulted.

    7. It provides potential terrorists and their supporters a way in 
        to the United States without detection.

    <bullet> The Rio Grande Valley leads the Nation in the number of 
            illegal aliens arrested along the border between the ports 
            of entry from countries that have a documented terrorism 
            presence such as Afghanistan, Pakistan, and Somalia.

    8. It enables serial criminals from around the world to come to the 
        United States and commit crimes.

    <bullet> Through the Immigration and Customs Enforcement's Secure 
            Communities Initiative, Texas has identified a total of 
            101,133 unique criminal alien defendants booked into Texas 
            jails who are responsible for at least 343,226 individual 
            criminal charges over their criminal careers including 
            1,738 homicides, 645 kidnappings, and 42,402 assaults.

    9. The Mexican cartels corrupt local, State, and Federal U.S. law 
        enforcement officials in support of their smuggling operations.

    <bullet> Since 2004, 132 Federal law enforcement officers have been 
            arrested for corruption along the Southwest Border and 
            according to the DHS Inspector General as of May, 2011 
            there were 1,036 open investigations of CBP personnel. 
            Border corruption plagues local and State law enforcement 
            as well. Two Texas Sheriffs were convicted for cartel-
            related corruption and recently a Texas State Trooper 
            seized over $1 million being transported by a former DPS 
            Officer who was seeking election to a Constable position in 
            South Texas.

    10. It exposes Unaccompanied Alien Children (UACs) from Central 
        America and Mexico seeking refuge in the United States to 
        serious risk from human traffickers and criminals.

    <bullet> Although illegal alien arrests in Texas have decreased 
            since 2008, the number of UACs increased dramatically. 
            According to media reports HHS advised that the number of 
            UACs have increased by 93% since last year
    <bullet> The Federal Government lacks the capacity to address the 
            dramatic increases in UACs and as word continues to spread 
            more UACs will likely come further stressing the system 
            unless foreign governments can be enlisted to intervene.
    <bullet> The management of a simple childhood disease, like the 
            chicken pox, has illustrated the challenges in addressing 
            the UAC issue. Approximately, 10% of the UACs that arrive 
            at emergency shelters in Texas have contracted or been 
            exposed to a communicable disease requiring an immediate 
            response from the Texas Department of State Health Services 
            and local health care systems.
    <bullet> Understandably, the need to coordinate among five separate 
            Federal agencies--DHS/CBP, DHS/ICE, HHS/ASPR, HHS/AFC, and 
            DOD on this issue is challenging.
    <bullet> The unfortunate paradox that exists is that by adhering to 
            our values to treat these children exceptionally well, we 
            will likely entice greater numbers of children to endanger 
            themselves.
    Last, I would like to thank Chairman McCaul, Congressman Cuellar, 
and other distinguished Members of this subcommittee for your 
unwavering commitment to securing our Nation's borders in a way that 
ensures the secure and efficient commerce with Mexico.

    Mr. McCaul. Let me say thank you for your leadership from 
the State perspective and thanks for being here today.
    Mr. Garza, we got a close look up-front of the bridge and 
the X-ray machines. The difference I saw from prior trips is I 
didn't see any more human smuggling. Five thousand 18-wheelers 
crossing through every day. Not to say that there aren't 
narcotics coming through, though, but I thought that that was 
an interesting trend.
    Now, as Mr. McCraw testified, they are coming in, but I 
don't think it's at the port of entry as much as it used to be 
and I think you're doing a good job in that respect.
    The DOJ National Drug Threat Assessment found, though, that 
the majority of drugs coming through the country into the 
United States are coming through the ports of entry and I just 
wanted to get your thoughts as to whether that is an accurate 
assessment.
    Mr. Garza. Well, sir, thank you for the question.
    What we see at the ports of entry is what we seize. That 
that reaches up north--certainly, through our layered 
enforcement we have the checkpoints out on the highway that are 
inspecting vehicles going north as well. You know, we're not--
we're not naive, we're not going to, you know, testify that we 
catch everything that comes through, but what can I tell--what 
I can tell you is that we use every means of equipment that we 
have. We have dedicated canine resources that we use 
effectively every day. If something is getting through to us, 
you know, they normally are not coming back and telling us that 
they have gone through us.
    We do work intel through our partners. We work very 
effectively with all of the law enforcement agencies, both 
Federal and State. We're doing a lot of outbound searches with 
DPS, with Border Patrol, with State DPS Officers, as well as 
the local sheriff, and then, of course, the police department; 
but, you know, we do operations, daily operations. We know how 
much we seize, but we don't have any way of knowing how much 
gets through it.
    Mr. McCaul. But we know somehow it's still coming into the 
country.
    Mr. Cuellar and I dealt with the funding for the BEST 
teams, the Border Enforcement Security Teams, do you believe 
that's a wise investment?
    Mr. Garza. Yes, sir. I think that is very wise. I was one 
of the first stakeholders, that used to be called Black Jack 
when we first started here in Laredo, that went on, a very 
successful program. It went on and it was instituted at every 
major area within our border and, now, we're trying to do it in 
the United States, so that is very wise. You have an array of 
people that are working together, law enforcement people that 
are working together and they're working off of intelligence, 
and also we have our Mexican partners in there at some of these 
BEST units. So nobody can do--even though it is our 
responsibility, the ports of entry, we have to rely on other 
agencies, both Federal, State, and local agencies to help us 
with the enormous task that we have at hand trying to secure 
our borders.
    Mr. McCaul. I think the BEST teams in terms of, you know, 
confiscating the cash for the weapons going south, that really 
chokes the life blood of these drug cartels.
    Now, we--as we talked about at lunch, they're using other 
ways to launder money back into Mexico, and I think--I want to 
commend everybody in the room who is participating with the 
task force in that regard.
    Let me ask you about technology. We've--Henry and I have 
been huge proponents of leveraging existing technology; a lot 
of it actually being brought back from Iraq and Afghanistan. We 
talked about the helicopters earlier. We secured three UAVs for 
the State of Texas. Sensor surveillance technology. Now, I know 
a lot of that may be between the ports-of-entry type of 
technology, but what more could you use in terms of--what 
technology is available or could be available in the near 
future for you to utilize at the port of entry?
    Mr. Garza. Thank you for the question, sir.
    Technology has made the difference in our work at the ports 
of entry.
    Just to give you an example, prior to us having the imaging 
systems that we have in the cargo lots, which help us move that 
enormous amount of trucks and merchandise that we have, they 
used to unload by hand and it would take anywhere from 4 to 5 
or 6 hours. Now the technology that we have where we image that 
merchandise and that trailer, and we don't see any anomalies in 
there, it's out the gate. So it has reduced not only inspection 
time, but it also has reduced costs for the border community 
and has reduced the wait times as well. When we do not have to 
see a shipment, it only expedites the trucks that are going 
through our cargo.
    Mr. McCaul. The portal monitors' radiation, very 
impressive, 100 percent screening for a nuclear device coming 
into the Nation, one of the biggest threats that we could see 
on the horizon. The canines I think are extremely helpful with 
narcotics. Tell me about explosives. What are you doing to stop 
explosives coming in?
    Mr. Garza. Well, explosives, we used to have the two 
explosive dogs here in Laredo. We partner with--anytime we--
radiation portal monitors are screening for radiation. In 
addition to the primary, we have a secondary radiation portal 
monitors which is used for--to examine anything that has a 
concern at one of the--of our primary terminals, but we 
primary--here in Laredo, we partner with the Laredo Police 
Department. They have two explosive dogs and they're available 
on a 724, and it's just like calling the fire department. We 
call them if there's a bomb threat on the bridge or in any of 
our facilities, they come in and they clear it for us; but we 
do not have explosive dogs anymore.
    Mr. McCaul. I think one of the things we always talk 
about--``What keeps you up at night?''--and one of the fears I 
have is Iran's influence in the Western hemisphere.
    The tension between Israel and Iran is probably as worse as 
we've ever seen it, with the potential for a strike on Iran by 
Israel and the retaliation that would occur, both in Israel and 
in the Western hemisphere, that's an issue that we have to look 
at. As Iran gets closer to weapons-grade uranium, for instance, 
one of my nightmare scenarios is these flights between Caracas 
and Tehran, that we know are occurring; and Interpol is not 
able to monitor those flights, what is going back and forth, 
whether it's people or whether it's, possibly, a weapons-grade 
type of uranium. That in the Western hemisphere, if that 
happened, and it came over here, the scenario of it crossing--
perhaps, maybe, between a port of entry not through a port of 
entry--in a backpack, and then used in a major city in the 
United States with a stick of dynamite to explode a dirty bomb 
in one of our major cities, that's a scenario that keeps me up 
a lot.
    Mr. McCraw, I wanted you to possibly comment on that 
scenario and how can we stop that?
    Mr. McCraw. Well, there are too many holes, too little 
time, Chairman. That's why we worry about securing our National 
border.
    That's why we're, you know, willing to do what we can to 
help our Federal partners because every day matters. We're 
mindful that our enemies seek to destroy us and our way of 
life. They're very patient, and it's been a while since 9/11, 
we tend to forget; and even though our brave men and women are 
over in Iraq and Afghanistan, you know--you know, every day, 
you know, battling for our freedoms, we have to be mindful that 
they will seek to destroy us and they will seek to attack us 
again on U.S. soil.
    I'd like to bridge a little bit in terms of technology that 
we're working with the Border Patrol on, and--and really it 
started with the Texas sheriffs and working collectively. You 
don't have to spend a lot of--you always don't have to spend a 
lot of money to do it right, especially right now, because the 
private sector are the experts when it comes to technologies 
right now to the extent we can leverage what they do.
    We simply took wildlife cameras, okay, which is nothing 
more--it's got UV on a cell back--cellular phone--cell phone 
backbone that--motion detection, heat detection for under $300, 
you can produce, it can lasts up to 60 days in terms of battery 
life, put them in high-traffic areas, work with--closely with 
our Border Patrol partners and--you know, I was talking to 
Chief Johnny Espinoza and he said in the Laredo sector alone, 
they're getting 200 apprehensions a week as a result of these 
cameras that we deployed. So, you know, you might--you know, 
you don't have to spend a lot--you don't always have to spend a 
lot of money to get things right, and you do have to--and I 
think that both of you understand it very well, and that's the 
great thing about coming to Laredo, and for that matter all of 
Texas, is that we all get along and recognize the importance of 
complementing in the base--efficiencies that we can achieve is 
teamwork and working together, but technology--to take care of 
the issue on the bridge at the end of the day it has to be 
technology; because you cannot process that many truck-tractor 
semi-trailers over those international bridges, you know, by 
people alone. You can't keep breaking the seal.
    You have to find a way to identify the nuclear-type of 
option, radiological-type of option, but also the drug option 
and take--if you can take--if you deny the cartels their 
profits up to--ranges up to $39 billion a year for drugs, No. 
1, you're going to help the United States substantially in 
terms of the impact drugs have on our communities; and, No. 2, 
you're going to deny them the money they're using to battle 
each other, the citizens of Mexico, and to undermine the 
domestic security of Mexico.
    Mr. McCaul. Okay. Thank you.
    My last question, getting back to more the threat, I think 
the Saudi ambassador plot was a real wake-up call. The idea 
that an Iranian operative would be contracting with what he 
thought were Los Zetas to assassinate an ambassador in 
Washington, DC is an eye-opener.
    So as we look at what's happening, just right across the 
river, we know that the Zetas and the Sinaloa are in one of the 
toughest fights that they've ever been in, and the Mexican 
military and police are cracking down on them, as well, it's 
very foreseeable that the violence, as we talked about at lunch 
time, is going to escalate.
    Can you comment about how the violence that's occurring in 
Mexico, how that impacts the security of the United States?
    Mr. McCraw. Well, No. 1, what they're buying--what they're 
fighting for is those valued--high-value, very lucrative drug 
and human smuggling markets; and we're the demand. As long as 
it's un-secure, they can move ton quantities of drugs in that 
impacts this Nation. The last--the same report that you 
referenced in terms of NDIC DOJ's threat assessment talked 
about increasing use of drugs--and we were trending down, now 
we're trending up, especially in youth--that has an impact on 
the United States in terms of productivity in terms of social 
justice, in terms of criminal justice, a number of different 
factors. So we're mindful of that, but at the same time we're--
you know, from a Homeland Security, a National security 
standpoint, unless you know who comes between the ports of 
entry and at the ports of entry, you know, as long as we've 
increased the security overseas in terms of visa, viper, all of 
the other programs that we've done at the airports, you know, 
unless we eliminate the ability to come between the ports of 
entry undetected, you know, and unvetted, we are at risk and 
will continue to be. We know, from the numbers, we know that 
the Rio Grande Valley leads the Nation in terms of arrests of 
foreign nationals from countries that have a known 
international terrorism presence between the ports of entry. 
We're mindful of that and we're--we're obviously concerned 
about it, because you never know, you know, end of the day this 
about being proactive in a post-9/11 environment, and that's 
why from a law enforcement standpoint we're worried about that 
violence. You've got to get in their face.
    That's why the Sheriff's Department--you know, I can assure 
you that Webb County Sheriff is not going to allow a bunch of 
thugs to overrun ranch land and farm land. When he hears it, 
he's going to respond, deputies are going to respond. The same 
thing with Chief Maldonado here, it's the same thing. To the 
extent that DPS can back that up and ensure that we can provide 
capabilities to assist them with strike teams or aviation 
assets or that--tactical boat teams, we will do that; because, 
you know, in Texas we're not giving up one square inch to these 
thugs.
    Mr. McCaul. I thank you. The Chairman now recognizes the 
Ranking Member.
    Mr. Cuellar. Thank you very much.
    Mr. McCraw, you make a very good point about, you know, not 
the best at--I mean, when you look at technology, you don't 
have to pay all of these amount of dollars, because you can 
find a lot of good technology out there that's available at 
cheaper prices. I was trying to get the exact number as to how 
much money we spent for SPI, as you know, that Federal--was a 
pilot program that----
    Mr. McCraw. We spent $1.2 billion.
    Mr. Cuellar. Exactly. We've spent a lot of money, and one 
of the things, Mike and I--Congressman McCaul have always said, 
especially look at some of the technology that the military has 
used, because if it's good enough for the military, I can't see 
why we have to go spend all of those dollars and research and 
develop new things when the wheel has been invented already. 
So, you know, certainly, I appreciate what you're doing in 
trying to find that technology.
    The other thing is to ask our Homeland Security folks is, 
I've always said, if you have a structure out there--and I've 
asked--you know, I've asked in the past: ``Well, why cannot DPS 
put a camera there and share some of the infrastructure, so you 
don't have to develop--you know, put a tower over here when you 
already have a tower and work with the local sheriffs and 
police to do that?'' So the more we can do that, I appreciate 
it, and you made a good point there.
    The other thing is that what Congressman McCaul and I were 
doing is that the last time we were in Iraq, we were all--we 
know there's billions of dollars of equipment coming back to 
the United States and as we do go through the budget cuts that 
we're doing right now, just this Friday there was a story and--
and I was on the phone yesterday with Chairman McKeon, who is 
the Chairman of the Armed Services, for example, the U.S. Air 
Force is going to send out to the bone yard 18 of those Global 
Hawks, which are those--the more expensive drones than what the 
Homeland uses.
    So I spoke to him, I said, look, I know Congressman McCaul, 
and myself, and other folks are interested to see if there's 
any way--instead of putting those new drones out there, UAVs, 
and put them in the bone yard, why not use that over here and 
partner up with--you know, whether it's with the State or with 
Homeland Security, and that's something that McCaul and I are 
going to be looking at.
    The other thing is, we've asked you and we asked the--
General Nichols also, the TAG, to give us a list of what 
equipment you might be interested so we can go ahead and 
contact the Department of Defense, and in a letter by McCaul 
and myself and the group of us, the Texas delegation, both 
Democrats and Republicans, to help you get that equipment 
because, you know, the taxpayers have paid for those dollars.
    If there's equipment that can be useful to us, we certainly 
want to work with you. I know that Mr. Dragon over here and--
and fold--a few of us are working on trying to put that list, 
so the faster you can get that, the faster Mr. McCaul and I can 
help you put that.
    Mr. McCraw. We already have our list together, Congressman. 
We appreciate you asking and we do--it's at a page-and-a-half 
right now and we'll continue to add, but we appreciate the 
opportunity.
    Mr. Cuellar. Okay. When you get to 10 pages, put a period 
and we'll turn that in I think.
    Mr. McCraw. Yes, sir.
    Mr. Cuellar. We really appreciate that, and thank you for 
what y'all are doing there at the State level.
    The other thing is, we want to make sure, Mr. Garza, is 
that we're innovative in how we do our work on the border, 
because, you know, we've got to find that right balance between 
security. We have a lot of opportunities because, like I 
mentioned, 6 million jobs are created in the--are here in the 
United States based on the trades that we have with Mexico.
    One of the things that I see Mr. Carlos Villareal over 
here, the No. 1 Aggie that have here in Laredo, Texas, is--is 
we're, as you know, Laredo is on the verge of being the first 
city in the State, in the country, should I say, to establish 
where we have Mexican Customs to be at our Laredo Airport where 
cargo that's flying over Laredo right now will be able to stop 
in Laredo, pre-clear it through working with the Mexican 
Customs and then go into Mexico. We encourage you--and I know 
we've talked, and you're doing a great job, but make sure that 
whatever flexibility we need to make sure that your men and 
women are working with the Mexican Customs, because the program 
that we're going to establish here, once we get it done--and 
there's still a couple of little things that we need to finish, 
but that will be historic; and I think it'll be a model for the 
United States once we're open to that.
    So Mr. Garza, you've been very, very good. We would ask you 
to be as flexible and talk to your men and women to make sure 
that they work the Mexicans, because I want to see this program 
work. We've been working on it for a long time.
    The last time I was in--well, when I was in Cartagena, 
Colombia, we spoke to Secretary Clinton and we got the letter 
urging her to finish the last little points that have to--have 
to be done, because, you know, there's going to reciprocity 
where the American Customs will be over there. There's some 
questions about guns and guns on the other side and all of 
that. So we're trying to push this, but we want to make sure 
that at the local bases that we're as flexible as possible to 
make sure this works. So--but, you know, appreciate everything 
that you're doing on that part there.
    Finally, the last thing I want to do--I know we've got some 
of the private sector here, and y'all have been doing a good 
job, but we want to make sure this happens up and down the 
border. Your men and women that are getting--you know, looking 
at all of the people going through, for example, Laredo, 
there's a hundred buses a day that come in from across the 
river, we want to make sure that if there's a bad apple you 
treat them like a bad apple. But 99.9 percent, or maybe 99 
percent of them are good people that are coming over here to 
spend dollars at the stores. They go to San Marcos, go to the 
Galleria in Houston, San Antonio, the River Walk, they spend a 
lot of money over here; and you've heard me say this more than 
once, I--again, if it's a bad apple, treat them like a bad 
apple, but the majority of them are coming in, we need to treat 
them with courtesy and with respect, because they're coming in, 
and we want to make sure that the first face of the United 
States--and it's the men and women that you're here--it's the 
best face we can give them because--especially if they're going 
to be spending a lot of money over here.
    So, again, I know you all are doing a good job, but just 
make sure that that happens up and down the border. I think out 
of all of the Congressmen, I've got more ports and bridges than 
any other Congressman in the country and this is why this 
committee is very important to me and why we find that--that 
right balance. So I know, Gene, y'all----
    Mr. Garza. Yes, sir.
    Mr. Cuellar. Y'all have been doing a good job, and 
encourage y'all to keep--continue doing that.
    Mr. Garza. We'll continue to do that, sir.
    Mr. Cuellar. Okay. Finally, the last thing that I want to 
mention is, on the technology part of it, there is--and 
Congressman McCaul and I have pushed this very hard. A lot of 
times there's good ideas out there. There's a lot of companies, 
small start-up companies--and I know I was up there in Austin a 
couple of years ago. There's companies out there that come up 
with good ideas on how we can provide better security, and I 
would ask you--I know you've got to go up your chain, you've 
got to go up what--you know, the--but if you ever see good 
ideas out there, I would ask you to just try to pass that up as 
soon as possible. Because what makes our country great is the--
you know, the business people that come up with this 
innovative--and we've talked about the bad guys, how innovative 
they can be, but I would ask you to just, when you see good 
ideas up there, to try to move them up there, because sometimes 
there's a lot of--there's a lack of flexibility up there in 
Washington, DC and--not here, but I'm talking about up there--
and we see a lot of good ideas that I think will provide us a 
lot of security.
    I know that, for example, y'all--you've got some idea so 
you can move a lot quicker. I know we've got to go up their--up 
a chain, but, Mr. Garza, I would ask you, you know, to just--
you know, you're a good man. You've done a heck of a job. I 
would ask you that whenever y'all see any good ideas, your men 
and women, send them up there, so we can get to your folks and 
say: ``Yes, let's use this idea,'' because we saw some of the 
technology that you're using here----
    Mr. Garza. Yes, sir.
    Mr. Cuellar [continuing]. And I know there's a lot more 
technology, and we've seen a lot of this technology, so I would 
ask you to do that, because technology--you know, personnel is 
important, the procedures that we use is important, the 
cooperation, communications are important, but technology is 
one part that I would ask you to do that, because we've got to 
be one step ahead of the bad guys at all time, and ask you to 
just send any good ideas up there. Basically, I really don't 
have any questions. I really appreciate what y'all of--you 
know, both you are doing, Mr. McCraw at the State level, and 
Gene, Mr. Garza, you all have been doing a heck of a job, but 
just a couple of comments and observations about technology and 
working together in this pilot program that Mr. Villareal over 
here and some of us have been pushing.
    You remember the first meeting that we had, both customs, 
Mexican Customs and American Customs, were saying--they 
literally were like this and saying, ``It's not going to 
work.'' It's not going to work, and Mr. Villareal had to 
mention to the Mexican officials that the Laredo Airport has 
more runways than the Mexico City Airport does and it's one of 
the things that we just want to make sure that, you know, 
programs like this are going to be very historic in nature. 
We've all got to make sure that they're successful for trade, 
security, and finding the right balance.
    Mr. Garza. Yes, sir. We have had numerous, numerous 
meetings with Mexican Customs both at the local level and at 
the Mexico City level. We're on top of this. That is at the 
highest levels of government on both sides waiting to get 
approval. It certainly has our backing.
    Mr. Cuellar. Thank you very much.
    Mr. Chairman, I have no other statements. I just want to 
thank Mr. McCraw and----
    Mr. McCraw. Thank you.
    Mr. Cuellar [continuing]. Thank Mr. Garza for the good work 
that they and their men and women have been doing.
    Mr. McCaul. If I could just echo the Ranking Member, the 
best ideas don't come out of Washington. They come from the 
local areas, and, you know, every time I come down to the 
border, I learn something new. We learned a lot of new things 
today and I encourage Members, other Members, to come down here 
because you really don't understand it until you see it.
    With that, I want to thank you for--both of you for your 
great leadership and hard work on this issue.
    Mr. Garza. Thank you, sir.
    Mr. McCraw. Thank you, sir.
    Mr. McCaul. Appreciate it.
    Mr. Cuellar. Thank you very much.
    Mr. McCaul. I want to thank our second and final panel; and 
I'd like to make quick introductions and move on to your 
testimony.
    First, we have Mr. Jesse Hereford who is the director of 
Government Relations and Business Development at S&B 
Infrastructure as well as the vice chairman of the Border Trade 
Alliance. He serves as a liaison to elected and non-elected 
officials at the local, State, and Federal level on issues 
related to transportation and infrastructure. He worked for 
Senator Hutchison. Appreciate your service in the Congress and 
you've held so many leadership positions I can't possibly go 
through all of them.
    Mr. Hereford. Thank you.
    Mr. McCaul. Thank you so much for being here.
    Mr. Hereford. Thank you, Mr. Chairman.
    Mr. McCaul. Next, we have Mr.--I'm told I can call you 
Willie. Is that----
    Mr. Martinez. Yes, please. Please do.
    Mr. McCaul. Willie Martinez, Jr., is the chairman of the 
Laredo Chamber of Commerce, a native of Puerto Rico. Luis 
Fortuno and I came in together----
    Mr. Martinez. Oh, really. Very nice.
    Mr. McCaul [continuing]. With Mr. Cuellar. A very good man.
    Mr. Martinez. He's Governor.
    Mr. McCaul. Now the Governor.
    You've made Laredo home since 2001. Retired U.S. Army 
Captain, currently serves as senior vice president for the 
International Bank of Commerce. Thank you so much being here, 
Mr. Martinez.
    Mr. Martinez. Thank you.
    Mr. McCaul. Jose Gonzalez is the president of JD Gonzalez, 
LCB, and has over 20 years experience in the international 
trade industry. Served as president of Laredo Licensed U.S. 
Customs and Brokers Association, and is currently serving as 
the chairman of the board where he assists in representing one 
of the largest concentrations of customs brokers at working and 
securing our borders while facilitating legitimate trade, which 
is exactly the point and purpose of this hearing.
    I want to thank all three of you for being here today. With 
that, the Chairman recognizes Mr. Hereford for his testimony.

   STATEMENT OF JESSE HEREFORD, VICE CHAIRMAN, BORDER TRADE 
                            ALLIANCE

    Mr. Hereford. Thank you, Chairman McCaul, Ranking Member 
Cuellar.
    The Border Trade Alliance appreciates the opportunity to 
submit testimony for this important subcommittee hearing on 
security and trade facilitation technology at United States' 
ports of entry.
    The Border Trade Alliance was founded in 1986. We are a 
nonprofit organization that serves as a forum for participants 
to address key issues affecting trade and economic development 
in North America. Working with entities in Canada, Mexico, and 
United States, the BTA advocates in favor of policies and 
initiatives designed to improve border affairs and trade 
relations among the three nations.
    BTA's membership consists of border municipalities, 
chambers of commerce, industry, academic institutions, economic 
development corporations, industrial parks, transport 
companies, custom brokers, defense companies, manufacturers, 
and State and local governmental agencies, just to give you 
some background.
    Our organization over the years has had as part of its 
membership as various technology companies, both large and 
small, including manufacturers and technology integrators.
    The BTA, however, does not endorse one company's technology 
over another. We wholeheartedly acknowledge that technology 
must play a pivotal role in any border and port management 
solution that the Department of Homeland Security pursues.
    Without technology we will never have enough Border Patrol 
agents to secure the vast frontiers along the Southern and 
Northern Borders, nor will we have sufficient CBP Officers to 
staff every lane at our ports of entry.
    When it comes to the type of technology, however, we are 
unequivocal in our belief that the Federal Government must 
place an emphasis on implementing non-intrusive technologies to 
inspect cargo entering the United States. That is, technologies 
that do not require CBP Officers to open conveyances in order 
to clear the contents to enter U.S. commerce. Such intensive 
inspections slow entry times, lead to longer border wait times 
at increased costs and, in the case of produce--in the produce 
industry, can result in a total loss.
    I'm trying to get this down to 5 minutes. I've had to skip 
through a lot.
    Mr. McCaul. You're doing great.
    Mr. Hereford. We echo Congressman Cuellar's comments on CBP 
staffing levels. Border Patrol has seen a huge spike in agents 
since fiscal year 2004. That year Border Patrol was allocated 
$4.9 billion to fund over 10,000 agents, but by fiscal year 
2010, Border Patrol was allocated $10.1 billion to fund just 
over 20,000 agents.
    According to a March 30, 2011 GAO report, the Border Patrol 
is now better staffed than at any other time in its 86-year 
history. The same rapid rise in staffing levels cannot be said 
for CBP inspectors at our ports of entry.
    To the extent that the Members of your subcommittee can 
influence the process, we strongly encourage you to work with 
the recently-named conferees to the Transportation 
Reauthorization Conference Committee to ensure that the next 
highway funding bill includes funding for the Coordinated 
Border Infrastructure program. I know Congressman Cuellar has 
worked with us very closely on that program as was the case 
under SAFETEA-LU.
    CBI funds are dispersed to border State departments of 
transportation to help underwrite costs for transportation 
projects associated with facilitating international trade in 
and around the ports of entry with project locations up to 100 
miles from the border. These funds can be used for technology 
that help facilitate trade.
    CBI's effect on border State economies is drastic. The 
program has an annual economic impact of $55.9 million in 
Texas, $26.6 million in California, $27.5 million in New York, 
and $28.3 million in Michigan.
    I wanted to shift gears here, and this is not part of my 
testimony, the written testimony that was submitted, but I will 
provide copies for each of you.
    Congressman, you were talking about good ideas and getting 
good ideas presented to the committee. There is a Freight 
Shuttle project that the Texas Transportation Institute has 
developed, and they're looking at a pilot program in El Paso to 
start off with and then eventually another phase would be the 
Laredo to San Antonio corridor; but I wanted to highlight that 
project just briefly and then wrap up my testimony.
    The Freight Shuttle System is an innovative privately-
financed and -operated freight transportation alternative for 
use in highly-congested intercity corridors. This system will 
be an automated, zero-emission, lower-cost, and higher-
performing option for shippers that are increasingly 
constrained by the congestion growing in our many critical 
freight corridors. It operates single-unit transporters at 62 
miles per hour over a distance of up to 500 miles using tried 
and tested monorail technology.
    Again, I'll make sure to provide all of that to the 
committee.
    Then, just in closing, I wanted to highlight Senator 
Hutchison, my old boss. She, last week, asked the GAO to 
conduct a border wait-time study; and in that wait-time study 
she asked that the CBP processes, technology, infrastructure, 
and staffing levels be examined and then present that back to 
the Congress.
    So, in closing, the Border Trade Alliance appreciates the 
opportunity to submit these comments for the record. We welcome 
the opportunity to testify before your committee in the future 
and we offer our 25 years of experience in border affairs as a 
resource to your committee as you investigate these and other 
important issues affecting border security.
    [The prepared statement of Mr. Hereford follows:]

                  Prepared Statement of Jesse Hereford
                              May 1, 2012

    The Border Trade Alliance appreciates the opportunity to submit 
testimony for this important subcommittee hearing on security and trade 
facilitation technology at United States ports of entry.

                    ABOUT THE BORDER TRADE ALLIANCE

    Founded in 1986, the Border Trade Alliance is a non-profit 
organization that serves as a forum for participants to address key 
issues affecting trade and economic development in North America. 
Working with entities in Canada, Mexico, and the United States, the BTA 
advocates in favor of policies and initiatives designed to improve 
border affairs and trade relations among the three nations.
    BTA's membership consists of border municipalities, chambers of 
commerce and industry, academic institutions, economic development 
corporations, industrial parks, transport companies, custom brokers, 
defense companies, manufacturers, and State and local government 
agencies.

                            WHAT'S AT STAKE?

    The subcommittee should be commended for examining not only 
technology's effect on security at our ports of entry but also how 
technology might be used to speed legitimate trade and travel through 
the ports.
    Our ports of entry are quite literally our country's gateways to 
economic health and prosperity.
    Customs and Border Protection in fiscal year 2010 facilitated $2 
trillion in trade. Our neighbors in Canada and Mexico are our Nos. 2 
and 3 trade partners respectively by imports world-wide. Canada and 
Mexico in fiscal year 2010 were each responsible for sending more than 
$220 billion worth of imports into the United States.\1\
---------------------------------------------------------------------------
    \1\ Canada: $270,538,454,767 in imports; Mexico: $220,628,712,432.
---------------------------------------------------------------------------
    Our country maintains an inextricable economic link with Canada and 
Mexico. Texas, for example, is the No. 1 destination for Mexican 
imports at a value of a staggering $75 billion.
    Much of the same can be said for U.S. exports, where Canada and 
Mexico rank 1 and 2 world-wide as destinations for our goods.\2\
---------------------------------------------------------------------------
    \2\ Canada: $244,199,301,410 in exports; Mexico: $155,599,424,038.
---------------------------------------------------------------------------
    These aren't just economic data compiled by Government 
statisticians. These numbers mean jobs. One in four U.S. jobs depends 
on international trade. Consider the border States like California 
where 617,000 jobs depend on international trade, or Texas, where it's 
539,000 or Michigan where it's 210,000.

                        NON-INTRUSIVE = SUCCESS

    Our organization, the Border Trade Alliance, over the years has had 
as part of its membership various technology companies, large and 
small, including manufacturers and technology integrators.
    The BTA does not endorse one company's technology over another's. 
We wholeheartedly acknowledge, however, that technology must play a 
pivotal role in any border and port management solution that the 
Department of Homeland Security pursues.
    Without technology, we will never have enough Border Patrol agents 
to secure the vast frontier along our Southern and Northern Borders, 
nor will we have sufficient CBP Officers to staff every entry lane at 
our ports.
    When it comes to the type of technology, however, we are 
unequivocal in our belief that the Federal Government must place an 
emphasis on implementing non-intrusive technology to inspect cargo 
entering the United States. That is, technology that does not require 
CBPOs to open conveyances in order to clear the contents to enter U.S. 
commerce. Such intensive inspections slow entry times, lead to longer 
border wait times, increase costs and, in the case of the produce 
industry, can result in total loss.

                        BEWARE THE EXIT PROCESS

    In testimony delivered by DHS Secretary Janet Napolitano before the 
Senate Judiciary Committee on April 25, the Secretary touched on the 
United States Visitor and Immigrant Status Indicator Technology, or US-
VISIT, and stated that in October 2001 she:

`` . . . proposed a strategy to Congress to utilize DHS funds to 
implement an automated vetting and enhanced biographic exit capability. 
This strategy will allow the Department to significantly enhance our 
existing capability to identify and target for enforcement action those 
who have overstayed their authorized period of admission, and who 
represent a public safety and/or National security threat by 
incorporating data contained within law enforcement, military, and 
intelligence repositories.''\3\
---------------------------------------------------------------------------
    \3\ http://www.ilw.com/immigrationdaily/news/2012,0426-
napolitano.shtm.

    The BTA has a long history with US-VISIT, having served on the 
Department of Justice's Data Management Improvement Act Task Force 
shortly after 9/11, which was charged with making recommendations to 
the Department on how to implement an integrated border entry and exit 
system. While the BTA has never endorsed US-VISIT per se, we have 
always sought to work with DHS (and its legacy agencies in the 
Department of Justice and the Department of the Treasury) to implement 
an entry and exit system that would not harm border communities.
    A word of caution as your subcommittee contemplates how such a 
system might actually work. If DHS is looking to its management of the 
border entry process for inspiration, then border communities should 
hold their collective breath when it comes to DHS' development of the 
Congressionally-mandated immigration exit process.
    The need for an exit system is not a new idea. Congress first 
called for the development of an exit control in the 1996 Illegal 
Immigration Reform and Immigrant Responsibility Act. In the 16 years 
since, Congress has reiterated and strengthened its mandate in various 
statutes, including the anti-terrorism USA PATRIOT Act, and DHS has 
struggled to implement it, missing deadlines as it worked out how to 
design a system to accommodate travelers in the air, sea, and land exit 
environments.
    Yet the mandate remains in statute and the Congress--and 
immigration enforcement and reform--require results. In the fiscal year 
2010 DHS budget bill, Congress called on the Department to make 
quarterly reports on its progress in developing US-VISIT for the land 
borders, leading many to believe that some sort of land border exit 
program test is coming down the pike.
    Border communities in the United States have seen their local 
economies negatively affected by the economic downturn of this Great 
Recession and the increasing hassle experienced by shoppers and other 
visitors crossing the border. Adding another layer of delays to the 
border crossing experience--this time as travelers attempt to head 
home--could sink the border economy.
    In the pilot tests run by DHS in the air environment, the exit 
process mirrors the entry process. It need not be so at the land 
borders. With the right mix of technology and political will, the land 
border implementation of US-VISIT can result in the exit of foreign and 
U.S. travelers out of the United States and into Canada and Mexico 
without the long lines they all endure coming in.
    Any US-VISIT solution for the land borders should be implemented 
with the best interests of border communities as the top priority. 
Replicating the entry process is a non-starter. Long lines of traffic 
backups into U.S. communities will be fiercely--and rightly--opposed at 
a local level and by many in Congress.
    But by deploying available technology designed to continue the 
current unimpeded U.S. exit--not slow it with a new exit process--the 
Government can implement a US-VISIT land exit solution that meets the 
mandates of Congress, the needs of local communities, and doesn't 
become an impediment to trade and travel.

                   A DISCREPANCY IN AGENCY RESOURCES

    In February 2009, Chesley Sullenberger, the famed pilot who 
successfully ditched his U.S. Airways Airbus in the Hudson River 
following a bird strike that disabled his aircraft, testified before 
the House Committee on Transportation and Infrastructure's Subcommittee 
on Aviation. In his testimony, Sullenberger said:

``In aviation, the bottom line is that the single most important piece 
of safety equipment is an experienced, well-trained pilot.''\4\
---------------------------------------------------------------------------
    \4\ http://aircrewbuzz.blogspot.com/2009/02/what-capt-sully-
sullenberger-told.html.

    In port security, much like in aviation, there is no more important 
technology than an experienced CBPO who can spot an anomaly or identify 
a traveler who might seek to do us harm.
    Unfortunately, this vital element of border and port security is 
growing increasingly hard to come by.
    Your subcommittee will get no argument from the trade community and 
the constituency that the BTA represents that the Border Patrol is not 
an integral component of our Nation's border security strategy.
    But the increased attention that Congress and this and previous 
administrations has directed towards Border Patrol has left the agency 
responsible for security at the ports of entry, Customs and Border 
Protection, coming up short in the chase for dwindling human and 
technological resources.
    Border Patrol has seen a huge spike in agents since fiscal year 
2004. That year, Border Patrol was allocated $4.9 billion to fund 
10,817 agents. But by fiscal year 2010, Border Patrol was allocated 
$10.1 billion to fund just over 20,000 agents.
    According to a March 30, 2011 GAO report, the Border Patrol is now 
better staffed than at any other time in its 86-year history.\5\
---------------------------------------------------------------------------
    \5\ http://www.gao.gov/new.items/d11508t.pdf.
---------------------------------------------------------------------------
    The same rapid rise in staffing levels cannot be said for CBP 
inspectors at our ports of entry.

                          A NOTE ABOUT SBI NET

    The BTA recognizes that some Members of this subommittee were 
dubious of the effectiveness of SBInet, the so-called ``virtual fence'' 
in southern Arizona that was canceled last year by DHS.
    Being the only third-party organization allowed to visit the 
program facility on a fact-finding mission late 2010, and after a 
presentation with Border Patrol agents in the Tucson sector where the 
system is deployed and having studied the issue closely, we believe 
that the system should have been allowed to continue, especially in 
light of subsequent requests for information from DHS calling for much 
of the same technology already in use as part of SBInet in southern 
Arizona.
    While this testimony has focused mostly on security at the ports of 
entry, we're not blind to the fact that our constituency is in the 
midst of an uphill climb to direct attention to the ports when the area 
between our ports is perceived as porous.
    We believe that an effective SBInet program between the ports will 
allow more human resources to be directed to the ports themselves. We 
are encouraged that DHS still believes that technology is a vital 
component to any border security strategy. We hope the Department gives 
the system in southern Arizona another look as it moves forward with 
the latest iteration of its border security strategy.

                   COORDINATED BORDER INFRASTRUCTURE

    To the extent that the Members of your subcommittee can influence 
the process, we strongly encourage you to work with the recently named 
conferees to the Transportation Reauthorization Conference Committee to 
ensure that the next highway funding bill includes funding for the 
Coordinated Border Infrastructure (CBI) program, as was the case under 
SAFETEA-LU.
    CBI funds are disbursed to border State departments of 
transportation to help underwrite costs for transportation projects 
associated with facilitating international trade in and around ports of 
entry, with project locations up to 100 miles from the border. These 
funds can be used for technology that can help facilitate trade.
    CBI's effect on border State economies is dramatic. The program has 
an annual economic impact of $55.9 million on Texas, $26.6 million in 
California, $27.5 million in New York, and $28.3 million in Michigan.
    It's because of CBI that Texas can, for example, construct roads 
leading from a port to the interstate highway system. Even the most 
modern port is of little benefit to the economy if trade is still 
encountering bottlenecks in the border region.
    CBI helps reduce congestion, facilitates trade, and it creates 
jobs, something we know Congress and the administration are especially 
sensitive to in this economy.
    The Border Trade Alliance appreciates the opportunity to submit 
these comments for the record. We welcome the opportunity to testify 
before your committee in the future and we offer our 25 years of 
experience in border affairs as a resource to your committee as you 
investigate these and other important issues affecting border security.

    Mr. McCaul. Thank you, Mr. Hereford.
    Mr. Hereford. Thank you, Mr. Chairman.
    Mr. McCaul. We appreciate your testimony.
    The Chairman now recognizes Mr. Martinez.

  STATEMENT OF WILFREDO MARTINEZ, CHAIRMAN, LAREDO CHAMBER OF 
                            COMMERCE

    Mr. Martinez. Good afternoon distinguished Members of the 
Subcommittee on Border and Maritime Security and guests.
    On behalf of the 750 members of the Chamber and IBC Bank, 
I'd like to welcome you to our vibrant city on the U.S.-Mexico 
border. We appreciate you taking the time to visit our border 
to see first-hand the movement of people and goods that take 
place on a daily basis in these various locations as we 
sincerely appreciate you meeting with members of the private 
sector to discuss non-Governmental issues which have a global 
economic impact.
    I am glad you had the opportunity to visit the port to tour 
the bridge and to see the movement of traffic. Aside from being 
the United States' busiest inland port of cargo, Laredo being 
at the south end (or start) of I-35 also happens to be a major 
crossing point for tourism and business-related activity. The 
economy of our community, as all border communities, is heavily 
dependent on business and trade with our neighbors to the 
south.
    As a representative of the business community, my remarks 
will address two particular industries. No. 1, that of 
international trade and transportation; and No. 2, that of 
regular traffic which impacts our tourism and retail 
industries.
    Regarding the first, I will keep my remarks to a minimum 
since I'm sure there will be other testimony by experts who 
will address issues specific to that industry.
    Most people will be amazed to know that two of our 
international bridges cross over 10,000 trucks daily and our 
rail bridge crosses over 1,400 rail cars daily as well.
    Manufactured and agricultural products that cross our 
bridges are not destined for this community but rather 
northbound to be distributed to States along throughout the 
Northeast, the Midwest, and even the West Coast. Goods headed 
southbound is that--destined for Mexico City, Monterrey, 
Guadalajara, and a number of other Mexican markets.
    Products and materials intended for manufacturing purposes 
travel on a ``just-in-time'' travel schedule which means that 
production depends heavily on timely deliveries. Delays along 
the way, for whatever purpose, may end up costing companies 
thousands or millions of dollars in turn affecting the consumer 
and our economy. Therefore, it is imperative that the flow of 
goods across our border move constantly and efficiently.
    Regarding the second industry, that of retail and tourism, 
regardless of the reports of an increase in crime in Mexico, 
consumers from throughout Mexico visit our city all year round 
supporting our retail industry which creates jobs for thousands 
of U.S. citizens. In addition, millions of visitors pass 
through our city on their way to other points within the United 
States. The Federal Reserve Bank of Dallas, El Paso branch, 
reports that as much as 40 percent of local retail sales can be 
attributed to Mexican nationals and at--the same can be said of 
each of the crossing points along the U.S.-Mexico border.
    Laredo's geographic location also makes it a key crossing 
point for Mexican tourists visiting other parts of the State, 
but 1- or 2-hour wait times in 100-degree weather, that we're 
accustomed to down in Laredo, tend to discourage visitors from 
planning trips or, at the very minimum, reduce the number of 
trips they make during the year.
    What affects us on the border inevitably has an impact on 
other communities in other parts of the State as proven by the 
number of I-94s generated on this border. Retail centers in San 
Antonio, as well as outlet malls in San Marcos, Texas, will 
emphatically agree that sales to Mexican nationals have a 
tremendous positive impact on their profits. As you can see, 
the transportation and travel that our international bridges 
facilitate create a significant impact on the business 
community and our economy.
    I'd also like to add that our community has been a strong 
supporter for border security. Even faced by increased vehicle 
searches following 9/11 and added security programs such as the 
US-VISIT, the Western Hemisphere Travel Initiative, which tends 
to impact on the number of crossings and result in longer lines 
and extended wait times at the bridges you'll find that support 
in our community for safe borders has not waived.
    Yet it is important that we maintain a careful balance 
between security and commerce. We cannot afford to hurt our 
economy in our haste to seal up our borders.
    Certainly, there is an illicit movement of drugs and 
undocumented aliens across our borders. We're all aware of 
that. But, by far, the larger majority of people moving across 
our Southern Borders do so in a legal manner and for lawful 
business and leisure activity. They literally come to spend 
money in the United States and we must keep that in mind as 
they make their way into our country. It is imperative that we 
offer visitors from Mexico entering the United States by land 
the same treatment that we offer air and sea travelers.
    I'm almost done.
    Specifically I ask you to consider the following: Support 
for proper resources to efficiently implement security programs 
such as providing Federal agencies with sufficient personnel to 
do a proper job. Provide the required infrastructure to ensure 
that traffic continues to flow (proper and humane facilities 
for bus passengers entering the country and for the issuance of 
I-94 permits).
    I have a little bit more. Should I continue? I see the red 
light, so----
    Mr. McCaul. It's red, but if you could just summarize that 
would be great.
    Mr. Martinez. I'm going to.
    Sensitivity and proper training to ensure that visitors 
entering our country are made to feel like visitors and not 
necessary--necessarily suspects. As far as the latest report 
that I've seen from our--from our Federal agencies, not a 
single individual involved in any form of terrorism has been 
detained along the Southern Border. Yes, we must be vigilant, 
but we must also continue to be courteous.
    Ladies and gentlemen, it's our hope that you will take back 
this message with you to Washington. Particularly given the 
wave of isolationism seeping through the Nation and calls for 
militarization of the border, it is important that we keep in 
mind that sealing the border is a short-sighted way of looking 
for solutions. Bottlenecks, longer waits, disdain for visitors 
. . . this will affect our community. But, in the long run, 
they bring about dire consequences to the economy of this State 
and the country as a whole.
    While we treasure our business ties with our neighbors to 
the south, we're Americans first. We don't ask that we do away 
with security, but simply that we conduct it in a civil and 
efficient manner that will foster our economic growth and 
retain the United States' reputation as the most prosperous 
Nation in the world.
    Thank you very much. I apologize.
    [The prepared statement of Mr. Martinez follows:]

                Prepared Statement of Wilfredo Martinez
                              May 1, 2012

    Good afternoon, distinguished Members of the Subcommittee of Border 
and Maritime Security and guests. On behalf of the 750 members of the 
Laredo Chamber of Commerce I'd like to welcome you to our fair city on 
the U.S.-Mexico border. I want to thank you for taking the initiative 
to visit border crossings and see first-hand the movement of people and 
the processing of goods that takes place on a daily basis in these 
various locations; but, more importantly, I commend you for taking the 
time to meet with members of the private sector to discuss non-
Governmental issues of concern.
    I know that time is limited so I'll be careful to keep my remarks 
short.
    Ladies and Gentlemen, I hope that during your visit you have the 
opportunity to visit the port; to tour the bridge; and to see the 
movement of traffic. Aside from being the United States' most important 
crossing point for the movement of cargo, Laredo, being at the south 
end (or start) of I-35, also happens to be a major crossing point for 
tourism and business-related activity. The economy of our community, as 
all border communities, is heavily dependent on business and trade with 
our neighbors to the south.
    As representative of the business community in general, my remarks 
will address two particular industries: (1) That of international trade 
and transportation, and (2) that of regular traffic which impacts our 
tourism and retail industries.
    Regarding the first, I will keep my remarks to a minimum since I am 
sure there will be other testimony by experts that will address issues 
specific to that industry. Suffice it to say that two of our 
international bridges--the World Trade Bridge and the Colombia Bridge--
cross over 10,000 trucks daily--and the rail bridge crosses over 1,400 
rail cars also on a daily basis. The manufactured and agricultural 
product that crosses our bridges is not destined for this community--
rather, northbound, it is distributed to States along the Northeast, 
the Midwest, and I dare say, even the West Coast; southbound, it is 
likewise destined for Mexico City, Monterrey, Guadalajara, and a number 
of other Mexican markets. Product aimed for manufacturing purposes 
travels on a ``just-in-time'' travel schedule. That means that 
production depends heavily on timely deliveries. Delays along the way, 
for whatever purpose, may end up costing companies thousands or 
millions of dollars that affect all of us. It is imperative that the 
flow of goods across our border move constantly and efficiently.
    Regarding the second industry--that of retail and tourism--Let me 
say that notwithstanding the reports of an increase in crime on the 
Mexican side of the border, consumers from throughout Mexico visit our 
city throughout the year and nurture our retail industry. In addition, 
millions of visitors pass through our city on their way to other points 
within the United States. The Federal Reserve Bank of Dallas, El Paso 
Branch, reports that as much as 40% of local retail sales can be 
attributed to Mexican nationals. The same, perhaps not at the same 
level, but quite similar can be said of each of the other crossing 
points along the U.S.-Mexico border.
    Let me also add that Laredo's geographic location also makes it a 
key crossing point for tourists visiting other parts of the State. One- 
or 2-hour waits in 100-degree weather, however, will tend to discourage 
visitors from planning trips, or at the very minimum, reduce the number 
of trips they make during the year. What affects us on the border, 
inevitably has an impact on other communities in other parts of the 
State, as evidenced by the number of I-94's generated on this border. 
Retail centers in San Antonio, as well as outlet malls in San Marcos, 
TX, will readily corroborate the impact that sales to Mexican nationals 
have on their figures. Both these destinations attribute a substantial 
amount of retail sales to Mexican consumers.
    I mention all this to give you an idea as to the significance of 
the international bridges to our business community.
    Now, let me add that our community has been a strong supporter of 
border security. Even faced by increased vehicle searches following 9/
11, added security programs, such as US-VISIT, Western Hemisphere 
Travel Initiative (WHTI), which tend to impact on the number of 
crossings and result in longer lines and extended wait time at the 
bridges, you'll find that support in our community for safe borders has 
not wavered.
    Yet, it is important, that we maintain a careful balance between 
security and commerce. We cannot afford to hurt our economy in our 
haste to seal our borders.
    Certainly, there is an illicit movement of drugs and undocumented 
aliens across our borders. We are all aware of that. But, by far, the 
larger majority of people moving across our Southern Borders do so in a 
legal manner and for lawful business and leisure activity. They, 
literally, come to spend money in the United States. We must keep that 
in mind as they make their way into our country. We must offer visitors 
from Mexico entering the United States by land the same treatment that 
we offer air and sea travelers. Specifically, I ask you to consider:

    (1) Support for proper resources to properly implement security 
        programs--i.e.:

    <bullet> Provide Federal agencies with sufficient personnel to do a 
            proper job.
    <bullet> Provide the required infrastructure to ensure that traffic 
            continues to flow (e.g., proper and humane facilities for 
            bus passengers entering the country, and for the issuance 
            of I-94 permits).

    (2) Sensitivity and proper training to ensure that visitors 
        entering our country are made to feel like visitors and, not 
        necessarily, suspects. As far as the latest report that I've 
        seen from our Federal agencies, not a single individual 
        involved in any form of terrorism has been detained along the 
        Southern Border. Yes, we must be vigilant, but we must also 
        continue to be courteous.

    Ladies and Gentlemen, it is our hope that you will take back this 
message with you to Washington. Particularly given the wave of 
isolationism seeping through the Nation and calls for militarization of 
the border, it is important that we keep in mind that sealing the 
border is a short-sighted way of looking for solutions. Bottlenecks, 
longer waits, disdain for visitors . . . these all affect our 
community. But, in the long run, they bring about dire consequences to 
the economy of the State and the country as a whole--we're only the 
crossing point after all. Ladies and Gentlemen, this community is 94% 
Hispanic. We value our heritage. We treasure our business ties with our 
neighbors to the south--but, I assure you, we are Americans first. We 
don't ask that we do away with security, simply that we do so in a 
civil and efficient manner.
    Thank you.

    Mr. McCaul. Thank you, Mr. Martinez.
    Mr. McCaul. The Chairman recognizes Mr. Gonzalez.

  STATEMENT OF JOSE D. GONZALEZ, JOSE DAVID GONZALEZ CUSTOMS 
                           BROKERAGE

    Mr. Gonzalez. Good afternoon, Chairman McCaul and Ranking 
Member Cuellar. It is a privilege and an honor to appear before 
you today to provide testimony as I welcome you to Laredo, 
Texas, the port with the highest volume of truck crossings 
along the Mexican and U.S. border.
    CBP Officers at the Port of Laredo do an incredible job of 
keeping our country safe; and I had an opportunity to go behind 
the scenes and get an introduction into the training and 
technology that CBP Officers utilize to do their job 
effectively and efficiently when I participated in the CBP 
Citizens Academy last year; and I was thoroughly impressed at 
how much CBP Officers do and how quickly they do it.
    Regardless of how well CBP Officers are doing, given their 
resources, I believe there is always an opportunity to 
improve--especially with additional funding and technology and 
personnel.
    Additional infrastructure requires additional personnel.
    In May 2011, seven new primary inspection booths for 
commercial traffic were opened, nearly doubling the capacity of 
the World Trade Bridge. With a total of 15 primary inspection 
booths and improvements to the secondary express and--express 
and exit gates, the World Trade Bridge has the infrastructure 
to handle a record number of shipments, but we need additional 
CBP Officers to use the additional infrastructure.
    Technology for non-intrusive scanning of cargo has 
drastically reduced the slow and costly physical inspection of 
goods that require unloading the imported merchandise.
    In the short term, the Port of Laredo would benefit from 
additional mobile scanning units to expedite the flow of 
legitimate trade. In the long term and upon the availability of 
technology that can scan in less than 1 minute each primary 
booth should have its own fixed scanning unit so that each 
conveyance is scanned prior to entering the CBP's import lot.
    The accuracy of the data used by CBP to assess risk depends 
on who files the data.
    The filing of the certain information with CBP should be 
done by a party that is qualified to identify all of the 
issues, follow the appropriate analysis, and make the 
appropriate determination so that accurate information is 
filed. While U.S. licensed customs brokers are trained to 
analyze and identify the determinative factors, other parties 
in the supply chain are not.
    The GAO identified certain weaknesses in the current in-
bond system in a report to Congress dated April 2007. The GAO 
concluded that in the in-bond system collects inadequate 
information about the in-bond merchandise, thus underman--
undermining CBP's effort to manage associated security risks 
and ensure proper targeting of inspections. In response to the 
GAO report, the CBP proposed changes to the in-bond process.
    In its attempt to collect adequate information to manage 
associated security risks and ensure proper targeting of 
inspections, CBP has proposed requiring the party submitting 
the in-bond application to provide a statement setting forth 
the rule, regulation, law, standard, or ban to which the 
merchandise is subject to, and the name of the Government 
agency responsible for enforcing it, but only if the filing 
party has this knowledge. In essence, untrained individuals 
would not have to provide this statement simply because they 
have no knowledge of the rules, regulations, laws, standards, 
or bans that apply to the imported merchandise.
    Allowing untrained individuals to make determinations 
related to the matters of public health and safety is a sure 
compromise to the supply chain of security. For these reasons, 
CBP should reexamine the role of the customs broker in 
increasing the accuracy of the information provided to CBP.
    The Customs and Trade Partnership Against Terrorism is a 
joint Government-business initiative to strengthen overall 
supply chain and border security. In exchange for adopting 
stronger security practices, CBP generally affords C-TPAT 
partners reduced inspections. In the event of that the trailer 
or cargo is scanned and unloaded, it gets front-of-the-line 
priority.
    Despite the elevated security, C-TPAT shipments are not 100 
percent secure and CBP has discovered contraband in these 
shipments. Once a security-related incident occurs all partners 
connected to that shipment are suspended from the program 
without due process. This policy merits reconsideration because 
the immediate suspension from the program has serious 
consequences and causes irreparable injury to some C-TPAT 
partners.
    One recent example involved a C-TPAT-certified carrier that 
has 330 tractors and crosses 25,000 north and southbound 
shipments a month. One of the carrier's shipments found to 
contain contraband and the carrier was immediately suspended 
from the program prior to an investigation.
    Upon suspension from the program, the carrier's clients 
automatically received an electronic notification from--of the 
suspension. Consequently, its clients held hundreds of 
shipments at the border while they scrambled to find other 
carriers with whom they could make alternate arrangements.
    CBP should afford its C-TPAT partners with due process by 
investigating security breaches before taking hasty, immediate 
actions with such serious consequences.
    Chairman McCaul, Ranking Member Cuellar, I commend you for 
your leadership and continued efforts to increase the security 
of our country while expediting the flow of trade.
    Although CBP is doing a great job with its current 
resources, I believe that increasing the accuracy of data CBP 
receives, treating C-TPAT partners like true partners, and 
providing CBP with additional technology and personnel will 
further your goal of increasing security and accelerating the 
flow of legitimate trade.
    Thank you for this opportunity to testify today and I will 
be happy to answer any questions that you may have; and I look 
forward to working in the future.
    [The statement of Mr. Gonzalez follows:]

                 Prepared Statement of Jose D. Gonzalez
                              May 1, 2012

                              INTRODUCTION

    Acting Chairman McCaul, Ranking Member Cuellar, distinguished 
Members of the subcommittee: It is a privilege and an honor to appear 
before you today to provide testimony regarding the ``Use of Technology 
to Facilitate Trade and Enhance Security at our Ports of Entry.''
    First, I commend the subcommittee for holding the field hearing 
here in Laredo, Texas, the port with the highest volume of trucks along 
the U.S.-Mexico border and for inviting representatives of the local 
stakeholders to provide testimony.
    CBP Officers at the Port of Laredo do an incredible job of keeping 
our country safe. I had an opportunity to go behind the scenes and get 
an introduction into the training and technology that CBP Officers' 
utilize to do their job effectively and efficiently when I participated 
in the inaugural 8-week CBP Field Operations Citizens Academy last year 
and I was thoroughly impressed at how much CBP Officers do and how 
quickly they do it. Searching for alternatives to reduce delays while 
increasing security at the Port of Laredo for commercial traffic is not 
an easy task. Regardless of how well CBP Officers are doing given their 
resources, I believe that there is always an opportunity to improve--
especially with additional funding for technology and personnel.

        ADDITIONAL INFRASTRUCTURE REQUIRES ADDITIONAL PERSONNEL

    In May 2011, seven new primary inspection booths for commercial 
traffic were opened, nearly doubling the capacity at the World Trade 
Bridge. With a total of 15 primary inspection booths and improvements 
to the secondary express and exit gate areas, the World Trade Bridge 
has the infrastructure to handle a record number of shipments. The 
improvements to the infrastructure can only be fully utilized with 
additional CBP Officers. Additional personnel are needed now because 
northbound traffic currently peaks between about 9 a.m. to nearly 4 
p.m. every day during the week.

      TECHNOLOGY AND PERSONNEL FOR NON-INTRUSIVE SCANNING OF CARGO

    Technology for the non-intrusive scanning of cargo has drastically 
reduced the slow and costly physical inspection of goods that required 
unloading the imported merchandise. Currently, CBP Officers at the 
World Trade Bridge utilize fixed and mobile scanning units to detect 
contraband.
    Comparing the fixed and mobile scanning units, the mobile scanning 
units are more efficient as they can scan approximately 55 conveyances 
per hour as compared to the fixed scanning units that can scan 
approximately 20 conveyances per hour. Of course, fewer conveyances are 
actually processed in that amount of time because in addition to scan 
time, additional time of approximately 2 to 7 minutes are needed for an 
officer to analyze the image and compare it to the manifest data.
    In the short term, the port of Laredo would benefit from additional 
mobile scanning units to expedite the flow of legitimate trade. In the 
long term and upon the availability of the technology that can scan in 
less than 1 minute, each primary booth should have its own fixed 
scanning unit so that each conveyance is scanned prior to entering 
CBP's import lot.

  THE ACCURACY OF DATA USED BY CBP TO ASSESS RISK DEPENDS ON WHO FILES

    The filing of certain information with CBP should be done by a 
party that is qualified to identify all the issues, follow the 
appropriate analysis, and make the appropriate determinations so that 
accurate information is filed. While U.S.-licensed customs brokers are 
trained to analyze and identify the determinative factors, other 
parties in the supply chain are not. The validity of the information is 
dependent upon the skills and knowledge of the individuals who prepare 
those filings. To the extent that the integrity of the filings is 
called into question, CBP's targeting determinations for shipment 
scrutiny are compromised. Allowing untrained individuals to make 
determinations relating to matters of public health and safety is a 
material compromise of supply chain security.
    The Government Accountability Office (GAO) identified certain 
weaknesses in the current in-bond system in a report to Congress dated 
April 2007. The GAO concluded that the in-bond system collects 
inadequate information about the in-bond merchandise, thus undermining 
CBP's efforts to manage associated security risks and ensure proper 
targeting of inspections. In response to the GAO report, CBP published 
a notice of proposed rulemaking in the Federal Register \1\ on Feb. 22, 
2012 advising that it intends to make changes to the in-bond process.
---------------------------------------------------------------------------
    \1\ 77 Fed. Reg. 10622.
---------------------------------------------------------------------------
    In its attempt to collect adequate information to manage associated 
security risks and ensure proper targeting of inspections, CBP has 
proposed requiring the party submitting the in-bond application to 
provide a statement setting forth the rule, regulation, law, standard, 
or ban to which the merchandise is subject to and the name of the 
Government agency responsible for enforcing the rule, regulation, law, 
standard, or ban, but only if the filing party has this knowledge. In 
essence, untrained individuals that cannot provide accurate data would 
not have to provide the statement simply because they have no knowledge 
of the rules, regulations, laws, standards, or bans that may apply.
    These data elements are highly technical and relate with 
specificity to the merchandise itself and are interpretative in nature. 
The reality is that many shippers and importers will rely upon their 
service providers to develop this information. Moreover, even where 
detailed information is available, the validity and reliability of the 
information that CBP receives is in large part dependent upon the party 
who prepares and files the data. There are any number of complex rules 
and regulations which govern restrictions placed on special classes of 
merchandise, be they trade policy restrictions, or restrictions imposed 
by other Federal agencies for health, safety, or conservation purposes.
    Similarly, the Importer Security Filing (ISF) contains data that is 
reasonably necessary to improve CBP's ability to identify high-risk 
shipments so as to prevent smuggling and ensure cargo safety and 
security. One required data element is the harmonized tariff schedule 
number to the sixth digit. This number is used to identify what is 
being imported. An inaccurate classification number will compromise 
CBP's targeting. Only licensed U.S. customs brokers have demonstrated 
mastery in the classification of goods.
    For these reasons, CBP should reexamine the role of the customs 
broker as it relates to analyzing data, making determinations, and 
providing accurate information to CBP. The definition of customs 
business should encompass areas where a customs broker's expertise 
would increase the accuracy of data utilized by CBP to assess risk.

             C-TPAT PARTNERS SHOULD BE AFFORDED DUE PROCESS

    The Customs and Trade Partnership Against Terrorism, commonly 
called ``C-TPAT'' is a joint Government-business initiative to build 
cooperative relationships that strengthen overall supply chain and 
border security. In exchange for adopting these stronger security 
practices and after verification by CBP that the measures are in place, 
CBP generally affords C-TPAT partners reduced inspections and in the 
event that their cargo is scanned or unloaded it gets front-of-the-line 
priority.
    In order to qualify for the benefits of C-TPAT, the foreign 
manufacturer, the foreign long-haul carrier, the cross-border drayage 
carrier, and the U.S. importer must all participate in the C-TPAT 
program. In addition, the driver must also be enrolled in the Free and 
Secure Trade (F.A.S.T.) program.
    Despite the elevated security, C-TPAT shipments are not 100% secure 
and CBP has discovered contraband in C-TPAT shipments. Once a security-
related incident occurs, all C-TPAT partners connected to that shipment 
are immediately suspended from the program without due process, 
including the foreign manufacturer, the foreign long-haul carrier, the 
cross-border drayage carrier, and the U.S. importer despite the low 
probability that all of these entities were involved with the security 
breach. This policy merits reconsideration because the immediate 
suspension from the program has serious consequences and causes 
irreparable injury to some C-TPAT partners.
    One such example that occurred within the last month involved a C-
TPAT certified carrier that has 330 tractors and crosses 25,000 
shipments a month, including both northbound and southbound shipments. 
One of the carrier's shipments was found to contain contraband and the 
carrier was immediately suspended from the C-TPAT program prior to an 
investigation.
    Upon suspension from the program, the carrier's C-TPAT clients 
automatically received an electronic notification of the carrier's 
suspension from the C-TPAT program. Consequently, its clients held 
hundreds of shipments at the border while they scrambled to find other 
C-TPAT carriers with whom they could make alternate arrangements.
    One of the carrier's clients that imports approximately 300 
shipments a day found itself with a big problem considering that it was 
relying on the services of the carrier that was suspended from C-TPAT 
program. Realizing its failure to have a back-up plan, the client will 
likely split its future shipments between two or more C-TPAT carriers 
thereby causing irreparable injury in the form of lost business for the 
suspended C-TPAT partner.
    For this reason, CBP should afford its C-TPAT partners with due 
process by investigating security breaches before taking hasty, 
immediate action with such serious consequences. If immediate action 
must be taken prior to a full investigation then the action should be 
reasonable and it should be limited only to the individuals involved in 
that transaction instead of the entire company.

                               CONCLUSION

    Acting Chairman McCaul, Ranking Member Cuellar, and distinguished 
Members of the subcommittee, I commend you for your leadership and 
continued efforts to increase the security of our country while 
expediting the flow of trade. Although CBP is doing a great job with 
its current resources, I believe that increasing the accuracy of the 
data CBP receives, treating partners like true partners, and providing 
CBP with additional technology and personnel will further your goal of 
increasing security and accelerating the flow of legitimate trade. 
Thank you for the opportunity to testify today. I will be happy to 
answer any questions you may have and I look forward to working with 
you in the future.

    Mr. McCaul. Thank you, Mr. Gonzalez.
    I just want to ask, you know, you've touched on this, I 
think, quite well explaining these programs, but we basically 
have these two trusted traveler shipper programs. There's the 
SENTRI and then the FAST which is under the C-TPAT as you 
referenced; and this question is for all three of you.
    How would you--what kind of report card would you give to 
these programs and how could they be improved? I guess we'll 
start with you, Mr. Hereford.
    Mr. Hereford. Sure. Well, thank you very much, Mr. 
Chairman.
    You know, FAST, the--we always hear in our organization 
that FAST is not fast, but a lot of that has to do with 
infrastructure constraints because the FAST lane is not a 
dedicated lane for FAST; so you have others that are mixed into 
that and that causes a lot of the delays; and so my perspective 
and my opinion and the organization's would first be 
infrastructure as well as technology. Thank you.
    Mr. McCaul. That's a good point. A dedicated lane. I think, 
Mr. Garza, in your prior testimony referenced to the fact that 
that's the direction we're headed, correct? I know you're not 
testifying, but just to----
    Mr. Garza. I'll be glad to answer the question.
    Mr. McCaul. Yeah. It's a little more important.
    Mr. Garza. Yes, sir. At the World Trade Bridge it is a 
dedicated lane all the way from the Mexican side and on the 
bridge all the way to the primary. In fact, with the addition 
of seven lanes, it has allowed us to increase the FAST by 
three--up to three lanes now. So FAST is fast at World Trade.
    Mr. McCaul. Okay. Thanks for the clarification. I don't 
know if you have any----
    Mr. Hereford. I'm not disputing Gene. I've known him for a 
lot of years. I'm saying at other ports of entry. You know, for 
example, El Paso is the one that really stands out in my mind, 
they have that issue.
    Mr. McCaul. Okay. That's an excellent point as well.
    Mr. Martinez.
    Mr. Martinez. Mr. Chairman, I don't have a comment about 
FAST, but I can tell you about SENTRI from what I hear from our 
members. It is sufficient. It's something that they count on, 
on a daily basis to cross back and forth.
    I think the process could be somehow made more efficient as 
to apply for the SENTRI card and so forth; but once they have 
their card they use it, like I said, on a daily basis and 
they're very happy with it. I haven't heard any complaints 
unless it breaks down or it's used for other purposes.
    Mr. McCaul. How long is the application process in your 
judgment?
    Mr. Martinez. From what I hear, and correct me if I'm 
wrong, Mr. Garza, but it could take over a month sometimes to 
get that SENTRI card, you know, when you start new and----
    Mr. McCaul. Sure.
    Mr. Garza. It depends on each applicant. Generally we 
prefer that they go on-line and do their application, that will 
facilitate the application process, but, normally, I would say 
that within 2 to 3 weeks they should have their certification 
for--in SENTRI, but it all depends on each individual.
    Mr. McCaul. Right. I know that there's a sort of background 
check component which, you know, a month in terms of the 
Federal Government is really light years ahead, so--but I 
appreciate your comments.
    Mr. Gonzalez.
    Mr. Gonzalez. Yes, sir. Thank you, Chairman McCaul, for 
your question, and with regard to--I'm going to focus more on 
the C-TPAT because I feel like there's a lot of room for 
improvement.
    It requires a lot of investment from our stakeholders; and 
I know that just recently when we had--there was an issue that 
I mentioned here in my testimony, there was a situation that 
happened just last week, and we feel that there should be 
certain tiers involved so that it would allow an opportunity 
for the other trucks or the other trades companies, when they 
start doing crosses, they could go ahead and allow from the--
clearance without having to sit there and have their 
individuals look for different modes of C-TPAT tractor-trailers 
to do the crossings at that particular time.
    So there are room for improvement and we feel that we could 
work with the tiers and also making more investments with the 
smaller importers and the--we need to get more people involved.
    Mr. McCaul. Well, thank you.
    One thing you mentioned that caught my attention: The idea 
of these mobile scanning units.
    Mr. Gonzalez. Uh-huh.
    Mr. McCaul. Could you elaborate on that a little bit?
    Mr. Gonzalez. The mobile scanning units they do 55 trucks 
an hour. They're much more faster than the standard fixed 
units, and they're allowing us to go ahead and move more 
crossing. If you see--I'm sure you were at the import lot today 
and you were watching the trucks going through, the mobile 
units can scan a whole line whereas it takes five--I think 
five--correct me if I'm wrong, 5 to 10 minutes to do just one 
of the fixed unit, so it's a lot more efficient going through 
the mobile units.
    Mr. McCaul. When you got 5,000 18-wheelers, we saw a line 
there today.
    I guess to--Mr. Hereford and Martinez, I agree with you 
that boots on the ground is not going to solve everything. We 
need that and the technology piece. In my judgment, the 
technology piece has not been completed yet, and when it is I 
think we'll be able to say we have operational control of the 
border.
    Do you see any advances on the horizon that you think would 
be beneficial in providing that security and an expeditious 
flow of commerce?
    Mr. Hereford. That's a good question, Mr. Chairman.
    I mean, yes, you know, there are technologies. I mean, we 
work very closely with CBP. We put together a paper and a 
stakeholders forum on C-TPAT and provided that to them, and I'm 
pretty sure we provided that to Paul at the committee, so I do 
think that there are--we're progressing in that way.
    I think the UAVs that you all have referenced is absolutely 
critical to the border security aspect, and I think, again, the 
boots on the ground is one perspective--I mean, is one----
    Mr. Martinez. Aspect.
    Mr. Hereford [continuing]. One aspect. Thank you. But, you 
know, Mr. McCraw talked about cameras and there are other 
technological advances out there for border security.
    Now, we're not--again, we don't endorse anything, but I do 
think that we're moving in that direction. Because now you hear 
about--you know, with the fencing you--in essence, you've 
shifted the patterns now for smugglers, and that's where Border 
Patrol can now focus their efforts through these corridors.
    Mr. McCaul. Yeah. That's correct.
    Mr. Martinez, do you have any comment?
    Mr. Martinez. Mr. Chairman, I just want to re-emphasize and 
you just alluded to this is, if we're going to do any 
improvements to technology, we're all pro, you know, safe 
borders, but we need to make sure that we have the right 
personnel using that technology efficiently as opposed to 
getting something and upgrading that delays the process of 
commerce and transportation between the bridges.
    As long as--and I would suggest even testing this--whatever 
technology we're going to use testing that first before 
implementing it across the borders.
    Mr. McCaul. Yeah. I think the SBInet was an example of a 
colossal failure at $1.2 billion----
    Mr. Martinez. Correct.
    Mr. McCaul. As Mr. Cuellar and I--you know, we're both huge 
fans of leveraging existing technology that we've already spent 
all of the R&D on, we know it works and has worked in 
Afghanistan and Pakistan and Iraq.
    So with that said, Chairman recognizes Mr. Cuellar.
    Mr. Cuellar. Thank you very much.
    Jose, we had talked about $640 million that we had found, 
but I have to tell you that just last week we found out that it 
apparently got swept up to help reduce the deficit. We had 
found $650--$640 million that we were hoping we could use for 
border infrastructure. It was--actually had been in the account 
since the late 1900s--I mean, 1997-1998 as a fee for the NAFTA.
    Mr. Martinez. The NAFTA.
    Mr. Cuellar. But apparently--when we were trying to work 
with the Appropriations Committee it apparently was swept up 
last year, so it got to help reduce the--the deficit, so, you 
know, I'm sorry we won't be able to use that. I thought we were 
going to use $640 million for border infrastructure, No. 1.
    No. 2, I know we probably--and this is something, Mr. 
McCaul, we can work on together to come up with authorization, 
give Homeland or CBP authorizations where they can get private 
donations. I think we can find different organizations, whether 
it's the Michocana organization that say, you know what, we're 
willing to donate, we're willing to put some money in so we can 
move traffic in--or faster up there.
    So, Mr. McCaul, I would ask you if, maybe, we could work on 
some legislation together to give--and, Gene, I'm sorry, I 
didn't mean to get out of it, but I assume you just--I mean, 
since you're not up here, but I assume you cannot take any 
private donations to do any infrastructure or open up lanes; is 
that correct?
    Mr. Garza. That's correct, sir.
    Mr. Cuellar. You cannot?
    Mr. Garza. No.
    Mr. Cuellar. Okay. So that is something, because I know we 
can find different ways that we can get the private sector--
because if the private sector is willing to pool together and 
say, you know what, let's open up another booth here, another 
lane to move traffic, I think they'll be willing to do that, so 
I think that's something that we can get the private sector in.
    The second thing I would ask you is, Mr. Gonzalez, you 
mentioned this citizens academy and Mr. Garza was explaining 
that. I think it's a great idea.
    Mr. Garza, I would ask you to--encourage you to keep doing 
what you're doing, because this will allow the citizens to go 
behind the scenes and get to know what you're doing; and it's 
not only so they know what you're doing behind the scenes, but, 
I think, while you're going through that, you might have some 
input from some folks that might improve the process a little 
faster on that.
    So I would ask y'all to just keep those citizen academies. 
I think it's a very good idea. A lot of people don't know 
about, it's fairly new, but I think it's a good idea to get the 
private sector there.
    Finally, the other thing is the--on the C-TPAT that you 
mentioned in the testimony, Mr. Garza, didn't we talk about it 
this morning, that there's a little bit more flexibility on the 
C-TPAT where y'all are moving into that direction or are you 
constrained by--and I don't know if you saw the--or heard the 
testimony, but any flexibility, discretion that y'all might 
have to move that and it's a--it's a good thing that we're 
doing, but it's still--and I don't know if we're restrained by 
it or you're restrained, but any flexibility? You got to still 
keep an eye on the bad guys, but, you know, sometimes we get 
caught up by this process.
    Mr. Garza. Yes, sir. We'll continue to work with our C-TPAT 
office in Houston and headquarters. They are aware of the 
issue. Certainly, some of the trade community has gone up there 
on cases that involve themselves or company, but we'll continue 
to work and try to issue papers for them so they can be able to 
understand what Mr. Gonzalez was saying about that.
    Mr. Cuellar. Again, I appreciate, Mr. Garza, the 
sensitivity they provide to the stakeholders, because, again, 
if it's a bad apple you go after the bad apples. If it's the 
rest or if it's money that's being brought in, a billion 
dollars of trade between the United States and Mexico every 
single day, and 6 million jobs are created that are here in the 
United States because of the trade that we have with Mexico.
    Finally, the last thing is, you know, this field hearing, 
we're--you know, any time we have a hearing, we get testimony. 
In the back there is copies of the testimony not only for the 
individuals who are here but the ones that spoke before. There 
is a lot of good information, and I would ask you that if you--
if you have a chance pick up the testimony.
    As Members of Congress, we've learned a lot by just getting 
the testimony. It's an--amazing data and information, so I 
would ask, you know, if you haven't got a copy of the different 
testimony, I would ask you to do that.
    Otherwise, Mr. Chairman, this is it. I know we've got one 
more part of the day today that we've got to finish, but I want 
to thank the witnesses that are here, the good people that work 
very hard, and the witnesses that were here before, and it's 
always a pleasure seeing Laredo.
    You know, a lot of people talk about, you know, the border 
being a war zone, and one thing I--Mr. McCaul is very good. 
He's very good at being very balanced, very reasonable, making 
sure that we understand that this is not heaven, but we call it 
heaven here, but we're--you know, we do understand there is 
challenges here, but it's not what a lot of people paint, and I 
want to thank Mr. McCaul, because most of the time when people 
want to come to the border they want to go up there in the 
middle of the night and go up there with Border Patrol, and 
with night goggle visions and of all that, but I want to thank 
Mr. McCaul to see the trade, the largest inland port that we 
have in the United States, and I want to thank Mr. McCaul for 
providing this balanced approach.
    Mr. McCaul. Thank you. And thank you. And thank you for 
your kind words in recognizing that and thank you for hosting 
us in your beautiful city; and I also want to thank the staff.
    We rarely thank the staff and--but the staff has worked 
very hard on this hearing, and they've had the opportunity to 
come down to Laredo and see my home State and your home town 
and I just want to thank you for that. Last, thank the 
witnesses. Then finally I want to thank all of the law 
enforcement in the room.
    I remember when I got the news that Jaime Zapata had been 
shot and killed, and I had numerous visits with Agent Avila and 
the experience he went through down in Mexico, of course, you 
know, Agent Terry, another example, and a lot people just don't 
realize, you know, what you--day in and day out putting your 
lives on the line to secure this Nation, and I want to just 
personally--and I'm sure the Ranking Member agrees--just 
personally say thank you for your service.
    With that, this hearing is adjourned.
    [Whereupon, the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
